<html>
<title> - THE CRITICAL ROLE OF THE NATIONAL GUARD AT HOME AND ABROAD</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
       THE CRITICAL ROLE OF THE NATIONAL GUARD AT HOME AND ABROAD

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 20, 2005

                               __________

                           Serial No. 109-91

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                                 ______


                        U.S. GOVERNMENT PRINTING OFFICE
24-714 PDF                    WASHINGTON : 2006

________________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel





                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 20, 2005.................................     1
Statement of:
    Kempthorne, Dirk, Governor of the State of Idaho; and Edward 
      Rendell, Governor of the Commonwealth of Pennsylvania......    11
        Kempthorne, Dirk.........................................    11
        Rendell, Edward..........................................    27
    Walker, David, Comptroller General of the United States, 
      Government Accountability Office, accompanied by Janet A. 
      St. Laurent, Director, Capabilities and Management, 
      Government Accountability Office; Thomas F. Hall, Assistant 
      Secretary of Defense, Reserve Affairs, U.S. Department of 
      Defense; Lieutenant General David F. Melcher, Deputy Chief 
      of Staff, U.S. Army; Lieutenant General H Steven Blum, 
      Chief, National Guard Bureau; Major General Allen Tackett, 
      State Adjutant General, State of West Virginia; and Major 
      General Raymond Rees, State Adjutant General, State of 
      Oregon.....................................................    60
        Blum, Lieutenant General H Steven........................   134
        Hall, Thomas F...........................................    90
        Melcher, Lieutenant General David F......................   119
        Rees, Major General Raymond..............................   156
        Tackett, Major General Allen.............................   149
        Walker, David............................................    60
Letters, statements, etc., submitted for the record by:
    Blum, Lieutenant General H Steven, Chief, National Guard 
      Bureau, prepared statement of..............................   137
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   185
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     4
    Hall, Thomas F., Assistant Secretary of Defense, Reserve 
      Affairs, U.S. Department of Defense, prepared statement of.    92
    Kempthorne, Dirk, Governor of the State of Idaho, prepared 
      statement of...............................................    14
    McHenry, Hon. Patrick T., a Representative in Congress from 
      the State of North Carolina, prepared statement of.........   184
    Melcher, Lieutenant General David F., Deputy Chief of Staff, 
      U.S. Army, prepared statement of...........................   121
    Platts, Hon. Todd Russell, a Representative in Congress from 
      the State of Pennsylvania, prepared statement of...........   181
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada, prepared statement of.....................   183
    Rees, Major General Raymond, State Adjutant General, State of 
      Oregon, prepared statement of..............................   158
    Rendell, Edward, Governor of the Commonwealth of 
      Pennsylvania, prepared statement of........................    33
    Tackett, Major General Allen, State Adjutant General, State 
      of West Virginia, prepared statement of....................   152
    Walker, David, Comptroller General of the United States, 
      Government Accountability Office, prepared statement of....    63
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................     9

 
       THE CRITICAL ROLE OF THE NATIONAL GUARD AT HOME AND ABROAD

                              ----------                              


                       THURSDAY, OCTOBER 20, 2005

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:01 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Davis of Virginia, Shays, 
Gutknecht, Souder, Platts, Issa, Dent, Foxx, Schmidt, Waxman, 
Kanjorski, Sanders, Cummings, Kucinich, Clay, Watson, Van 
Hollen, Ruppersberger, and Norton.
    Staff present: Melissa Wojciak, staff director; David 
Marin, deputy staff director/communications director; Jennifer 
Safavian, chief counsel for oversight and investigations; Rob 
White, press secretary; Drew Crockett, deputy communications 
director; Grace Washbourne and Brien Beattie, professional 
staff members; Teresa Austin, chief clerk; Sarah D'Orsie, 
deputy clerk; Leneal Scott, chief information officer; Karen 
Lightfoot, minority press secretary; Andrew Su, minority 
professional staff member; Earley Green, minority chief clerk; 
Jean Gosa, minority assistant clerk; and Gilad Wilkenfeld, 
minority staff assistant.
    Chairman Tom Davis. Good morning. A quorum being present, 
the Committee on Government Reform will come to order.
    Today, the Committee on Government Reform continues our 
inquiry into the responsibilities our Nation places on the 
National Guard, and whether the Federal Government is 
fulfilling its commitment to our men and women in uniform.
    Today's Army National Guard is in a tough spot--tougher 
than perhaps at any time since the Second World War. Nearly 
one-third of all of the soldiers in Iraq are National Guard 
troops. At the same time, the citizen soldiers of the National 
Guard continue their numerous domestic tasks: providing 
security to airports and borders; monitoring the airspace of 
the continental United States; and responding to natural 
disasters, as we saw with Hurricane Katrina.
    They do their jobs, and they do them exceedingly well. 
However, the committee has learned that too often we are 
expecting Guard soldiers to perform their jobs without the 
assurance that they have all of the equipment and the training 
that we can and should provide them.
    At today's hearing, we are going to examine the Department 
of Defense policies and actions affecting the future of the 
National Guard, as well as hearing the critical needs of States 
for National Guard manpower and resources. Unfortunately, what 
we will hear about the state of the Army National Guard's 
equipment is unacceptable.
    Today, the Government Accountability Office will report 
that: Non-deployed Guard units now face significant equipment 
shortfalls because they have been equipped at less than war-
time levels, despite their vital contribution to the war on 
terrorism.
    The Army has required Army National Guard units to transfer 
or leave behind close to 100,000 items for use by follow-on 
forces, but the Army can only account for about 45 percent of 
these items, and has not developed a plan to replace them, as 
DOD policy requires. Without a completed and implemented plan 
to replace all the Guard equipment left overseas, Army Guard 
units will face growing equipment shortages and challenges in 
regaining readiness for future missions.
    Although deploying Army National Guard units have been 
getting priority for getting the equipment they needed, 
readying these forces has degraded the equipment inventory of 
the Guard's non-deployed units, and it threatens the Guard's 
ability to prepare forces for future missions both at home and 
overseas. Quite simply, we are robbing the non-deployed 
``Peter'' to pay the deployed ``Paul.'' I understand the need 
to prioritize in wartime, but this shouldn't have to be a zero-
sum game.
    At the rate we are going, we will bankrupt the National 
Guard. And I want to know today what we are going to do to 
change that prognosis.
    At a recent congressional hearing, General Steven Blum 
reported that the National Guard has only one-third of the 
equipment it needs to respond to domestic disasters and 
terrorist attacks, and will need at least $7 billion to acquire 
radios, trucks, construction machinery, and medical gear, to be 
in a position to support homeland operations.
    As confirmed by GAO in the study being released today, 
General Blum has reported that the equipment problem became 
worse as Guard units deployed to Iraq and Afghanistan; taking 
the newest equipment with them, leaving the home front with an 
outdated and dwindling supply of gear.
    Hurricane Katrina has shown us that the National Guard is 
our Nation's first military responder. And I think it is 
unfathomable that they are approaching equipment bankruptcy.
    Today I want to hear exactly how and when the Department of 
Defense and the Department of the Army will reequip the Army 
National Guard. All the policies on homeland defense and 
homeland security will come to naught if the Department of the 
Army doesn't equip the Guard.
    I hope to hear when they will be reimbursed for their 
outstanding response to the citizens of the Gulf Coast. I hope 
to hear when the equipment they left in Iraq is going to be 
replaced with new equipment. I hope to hear how the National 
Guard is integrated in all DOD and Army transformation 
policies, including the Guard's role in homeland defense and 
military assistance to civilian authorities.
    Where is the predictability in current DOD policies for 
State and local leaders to rely on? There appears to be none.
    We are honored today to have the Governor of Pennsylvania 
and the Governor of Idaho, to express their deep concerns with 
the current equipment situation and their needs for Guardsmen 
to assist with State security and emergency preparedness and 
response. They are joined by the State Adjutants General of 
West Virginia and Oregon. And we thank all of you for coming.
    Without debating the legalities of Federal and State laws 
concerning the National Guard, or lamenting the traditionally 
weak funding of the National Guard, it is important that we 
look at what the National Guard has done and is doing for this 
country right now.
    It is not enough to be grateful--even amazed--as they do so 
well with so little. We need to make sure that the DOD decides 
quickly what its responsibilities will be here at home, and 
establishes requirements that result in appropriate training 
and equipment for the National Guard.
    We need to make sure that the Army starts recognizing that 
the Army National Guard is charged with the same 
responsibilities of active duty forces; should be equipped at 
the same readiness levels as active duty; and it should not be 
funded at just 11 percent of what the active Army receives.
    And we have to be sure that Congress starts adjusting our 
authorizations and appropriations to recognize the resources 
required by the National Guard, who are also expected to be 
America's first military responders.
    I have been working closely with Senator Kit Bond and the 
Senate Guard Caucus, to get $1.3 billion in equipment for the 
National Guard included in the next applicable supplemental. 
This is not even close to the amount needed, and the measure 
may fail in conference. We can't let this happen.
    The time to ensure the brave and dedicated men and women of 
the Guard receive the training and equipment they need to 
fulfill missions of safety and security for the people of the 
United States is now. I look forward to hearing today from our 
witnesses what we need to do to make this happen.
    I would now yield to our ranking member, who has been 
active on these issues as well, Mr. Waxman, for his opening 
statement.
    [The prepared statement of Chairman Tom Davis follows:]
    [GRAPHIC] [TIFF OMITTED] T4714.001
    
    [GRAPHIC] [TIFF OMITTED] T4714.002
    
    [GRAPHIC] [TIFF OMITTED] T4714.003
    
    [GRAPHIC] [TIFF OMITTED] T4714.004
    
    Mr. Waxman. Thank you. Mr. Chairman, I am pleased you are 
continuing to focus committee attention on issues affecting the 
men and women serving in the National Guard.
    Over the history of this country, the Guard has played a 
significant role in ensuring the safety and well-being of 
Americans; but the recent increasing use of Guardsmen in 
conflicts abroad has placed tremendous strains on Guard members 
and the institution overall. We must do everything we can to 
ensure the National Guard functions effectively and 
efficiently.
    The Guard currently faces two major problems. First, the 
Nation has not been meeting its fundamental obligations to the 
Guard. As this committee has learned from previous oversight 
hearings, Guardsmen aren't getting paid on time; they aren't 
getting the proper and timely health care and benefits they 
deserve; and they have received sub-par equipment and training, 
compared to active duty forces.
    Second, the recent over-extension of Guardsmen overseas 
appears to be posing challenges to the Guard's ability to 
respond to domestic disasters. The recent response to Hurricane 
Katrina is a case in point. When the hurricane hit, many of the 
Louisiana and Mississippi Guardsmen were serving in Iraq and 
unavailable to help their friends and neighbors. Moreover, 
National Guard equipment important for the hurricane relief 
effort, such as Humvees, night goggles, and high-water trucks, 
were also over in Iraq.
    According to DOD and Guard plans, our reliance on the 
National Guard for security at home and abroad may only 
increase in the coming years. That is why I am so concerned 
about predicaments confronting the Guard today.
    We must make sure that the country is meeting its 
commitments to the individuals serving, and ensuring they have 
the resources necessary to do the job right.
    I look forward to hearing the witnesses today. I 
particularly want to welcome our former colleague in the 
Congress, Governor Kempthorne. And I know Governor Rendell will 
be here soon.
    And to the Governors, and to other witnesses, 
unfortunately, I have a conflict of interest--not a conflict of 
interest; a conflict of time--[laughter]--a conflict in 
schedule, that will keep me from being here. But my staff will 
give me a full report. And I will be working with the chairman 
to accomplish the goals we all seek. Thank you, Mr. Chairman.
    [The prepared statement of Hon. Henry A. Waxman follows:]
    [GRAPHIC] [TIFF OMITTED] T4714.005
    
    [GRAPHIC] [TIFF OMITTED] T4714.006
    
    Chairman Tom Davis. Thank you very much. I have a conflict 
of interest. I was in the Guard for 8 years, so I want to keep 
it strong.
    Do any other Members wish to make opening statements?
    [No response.]
    Chairman Tom Davis. If not, we will call our first witness: 
a former member of the other body, a former Mayor of Boise, ID, 
and the current Governor of Idaho, the Honorable Dirk 
Kempthorne, who has had a very distinguished public career.
    Dirk, we appreciate you being here today. It is our policy 
we swear everybody. Would you just raise your right hand?
    [Witness sworn.]
    Chairman Tom Davis. Thank you very much. And thank you so 
much for being here. And I would just note, as you do in your 
testimony, Idaho has basically put more people over in Iraq and 
had more people deployed than any other State, on a 
proportional basis. You have taken heavy losses. You have 
people down in Katrina, helping out down there. And you had an 
outstanding record as Governor.
    We are just really happy to have you here today, and I 
thank you for being with us to share your thoughts.

STATEMENTS OF DIRK KEMPTHORNE, GOVERNOR OF THE STATE OF IDAHO; 
      AND EDWARD RENDELL, GOVERNOR OF THE COMMONWEALTH OF 
                          PENNSYLVANIA

                  STATEMENT OF DIRK KEMPTHORNE

    Governor Kempthorne. Chairman Davis, thank you very much, 
and I was very encouraged with your opening comments and those 
comments by Congressman Waxman. And to all members of the 
committee, I am very delighted to be here to have these 
discussions.
    As we meet here today, the Idaho National Guard's 116th 
Brigade Combat Team is deployed in Iraq; our 183rd Attack 
Helicopter Battalion is being deployed to Afghanistan; our 
189th Airlift Squadron continues to rotate its C-130 aircraft 
and crews in and out of Southwest Asia.
    As you noted, Mr. Chairman, there are also 400 Idaho 
National Guardsmen deployed in Louisiana to assist the 
hurricane response effort in the Gulf Coast States. I am proud 
that today, in all, Idaho has the highest percentage of Guard 
forces mobilized than any other State.
    I am also proud of the fact that the Idaho National Guard 
has accepted every mission that has ever been requested of it, 
without exception or reservation. And I am proud of the men and 
women who carry out these missions with great professionalism 
and honor. They represent Idaho, and they represent the United 
States of America extremely well; as to all Guard units of all 
States.
    So I come here today with firsthand knowledge of the impact 
these missions have on a State's ability to respond to a 
terrorist event or a natural disaster.
    In anticipation of your first question, ``What can the 
Federal Government do to help States prepare?'', my first 
response is to ensure that we do have equipment. Now, why would 
I say that, when we have an entire National Guard? Because over 
the next several weeks, the 116th Brigade Combat Team will 
demobilize from Iraq and, significantly, they will leave behind 
their vehicles and rolling stock that would fill a train with 
212 railroad cars--over 400 vehicles.
    Additionally, in the event of a natural or manmade 
disaster, my State will have a significant shortage of state-
of-the-art tactical communication equipment to enable effective 
communication, control, and synchronization of efforts; as well 
as a shortage of critical medical equipment to facilitate 
immediate casualty treatment and care.
    At this time, I have not been made aware of any plan to 
reequip the 116th with the basic equipment that will be left in 
Iraq. Couple this with the BRAC recommendation to remove the C-
130 cargo aircraft from the Idaho Air National Guard--a move 
that will not only leave Idaho, but the entire Pacific 
Northwest, without airlift capabilities--and you can begin to 
understand the magnitude of the gap left in our response 
capabilities.
    These facts are in direct conflict with my ability as a 
Governor to prepare for disaster and/or domestic terrorist 
attacks. We need a commitment from the Federal Government that 
the equipment that is left in Iraq will be replaced in quick 
order. And we need further assessment of the BRAC 
recommendations on our ability to respond immediately to a 
regional disaster.
    When assets such as a C-130 are under the control of a 
Governor, that Governor can make one call and, within an hour, 
props are turning. This is not always the case with Federal 
assets. A comparison of total flights flown by Air National 
Guard units versus Air Force and Air Force Reserve units over a 
4-day period in response to Hurricane Katrina shows that the 
Guard flew 10 missions to every 1 mission flown by the Air 
Force and Air Force Reserve.
    A case in point: I spoke to a Governor of a southern State 
who said there were 60 C-130's under Federal jurisdiction and--
much to the frustration and the disappointment of the Air Force 
flight crews--few, if any, were flying.
    When brigades return from a 1-year tour of duty in the 
Middle East, they are at a truly proficient and efficient level 
of training. How do we maintain that level of readiness upon 
their return, if they now encounter a critical equipment 
shortage? And what does this imply for homeland security? What 
are the implications for recruitment and retention?
    No one can predict the magnitude of the next natural or 
manmade disaster, but I believe that we are prepared to sustain 
an emergency response for a 24 to 48-hour period; and at that 
point, based on the situation, we may well need to move 
additional personnel quickly to the disaster scene.
    Additionally, as we begin to activate National Guard 
personnel, we deplete the bank of emergency responders--such as 
doctors, nurses, EMTs, firefighters, law enforcement officers--
because in many cases, these men and women are part of the 
National Guard.
    I commend General Steven Blum and his team from the 
National Guard Bureau for their efforts to coordinate State-to-
State, Governor-to-Governor support during the Gulf Coast 
hurricanes. The General's efforts truly showcased how this 
model can work properly.
    Where it does not always work so well is in the 
coordination between the State and Federal Governments. Let me 
give you an example from Hurricane Katrina. In the days after 
the hurricane devastated the Gulf Coast region, Idaho responded 
to an urgent request to evacuate the frail elderly from the 
Gulf Coast States.
    We had identified more than 400 nursing home beds in Idaho 
for these evacuees. We sent two C-130's, with critical care 
nurses and emergency room physicians, to Houston and to 
Mississippi. When our planes touched down, our people were met 
with significant resistance. In one case, despite the 
overwhelming need for evacuation for many of the frail elderly, 
we could not find anyone who would release patients to us. It 
was only after the Governor of Texas personally interceded with 
the person in charge at the Astrodome that we were able to get 
10 individuals out. But that was the total and the final number 
of individuals that we could evacuate.
    In the other case, the temporary hospital that had been set 
up to receive frail elderly was on a Federal installation. When 
our people arrived, they were warmly greeted by overworked and 
stressed Mississippi medical personnel. But they were then told 
by a Federal official that they could not help, because they 
had not been ``Federalized.'' As patients were coming into the 
hospital, two emergency room physicians and eight critical care 
nurses from Idaho were literally informed to stand against the 
wall, because they did not have the necessary Federal 
credentials to treat patients.
    It is worth noting that, had the hospital been anywhere 
else besides Federal property, there would have been no 
problems with our doctors and nurses seeing patients.
    Since when did it become illegal for one State to help 
another State in these United States? This is the United States 
of America; it is not ``The Federal Government of America.''
    From my perspective, this is a fundamental breakdown in 
State-to-State assistance, that is caused by inflexible Federal 
regulations. I would encourage this committee to look at this 
issue as you consider various reforms to Federal emergency 
response policy.
    Mr. Chairman, in closing, we need to ensure the men and 
women of our National Guard are celebrated for their 
contributions to our safety and security; that we stand for our 
Guard in all that they must carry out.
    I look forward to this discussion with you and the members 
of the committee.
    [The prepared statement of Governor Kempthorne follows:]
    [GRAPHIC] [TIFF OMITTED] T4714.007
    
    [GRAPHIC] [TIFF OMITTED] T4714.008
    
    [GRAPHIC] [TIFF OMITTED] T4714.009
    
    [GRAPHIC] [TIFF OMITTED] T4714.010
    
    [GRAPHIC] [TIFF OMITTED] T4714.011
    
    [GRAPHIC] [TIFF OMITTED] T4714.012
    
    [GRAPHIC] [TIFF OMITTED] T4714.013
    
    [GRAPHIC] [TIFF OMITTED] T4714.014
    
    [GRAPHIC] [TIFF OMITTED] T4714.015
    
    [GRAPHIC] [TIFF OMITTED] T4714.016
    
    [GRAPHIC] [TIFF OMITTED] T4714.017
    
    [GRAPHIC] [TIFF OMITTED] T4714.018
    
    [GRAPHIC] [TIFF OMITTED] T4714.019
    
    Chairman Tom Davis. Thank you very much.
    We now have our distinguished second witness today, 
Governor Rendell of Pennsylvania. Let me just note, we first 
met when I was chairman of the County Board in Fairfax. You 
were active in the National League of Cities and the Conference 
of Mayors--an outstanding job as mayor, a leader in unfunded 
mandates; as were you, Governor Kempthorne. We worked together. 
And then again, when he was chairman of the Democratic National 
Committee, I was chairman of the Campaign Committee for the 
Republicans in the House.
    In this business, which can be very hard-edged, you always 
performed very admirably; as you are now. And we are just so 
pleased to have you here, Governor, today to testify on some of 
the problems the Guard is facing in Pennsylvania. And you do a 
great job. I just want to thank you for being here.

                  STATEMENT OF EDWARD RENDELL

    Governor Rendell. Thank you, Mr. Chairman.
    Chairman Tom Davis. And I know Mr. Kanjorski would say the 
same thing, but I thought I would say it from this side. Thank 
you.
    Governor Rendell. Well, thank you, Mr. Chairman.
    Chairman Tom Davis. And Mr. Platts, here.
    Governor Rendell. And it is great to see Congressman Platts 
and Congressman Kanjorski here. And I appreciate this 
opportunity. I will try to shorten my written remarks a little 
bit, because I am going to cover some of the same ground that 
Governor Kempthorne has spoken to you about.
    Obviously, everyone is aware of the joint status of the 
National Guard. It is the only military personnel that perform 
in that joint status. It goes all the way back to the militia 
clause of the Constitution.
    In many ways, today's National Guard carries out the genius 
of our founders, and it constitutes federalism in action in a 
military context. Formation of the militia predates the 
founding of our country. The Massachusetts National Guard 
traces its lineage to the first regiments established by the 
General Court of the Massachusetts Bay Colony in 1636.
    And our most renowned Pennsylvanian, Benjamin Franklin, 
founded the Pennsylvania National Guard when he formed the 
Associators in Philadelphia in 1747. In 1755, the Colonial 
Assembly passed Pennsylvania's first militia law. And 
coincidentally, on November 25th, we will celebrate the 250th 
anniversary of the Pennsylvania National Guard.
    Today's National Guard in Pennsylvania and across America 
is the modern militia reserved to the States by the U.S. 
Constitution. Based on a dual enlistment system, every member 
of the Pennsylvania National Guard takes an oath of enlistment 
in a reserve component of the Armed Forces--the National Guard 
of the United States--and in the modern State militia--the 
State national guard.
    These State and Federal military entities are linked 
inseparably. On a day-to-day basis, the Guard remains under the 
State command and control, and the Governors serve as 
commanders in chief. When the Guard is called into active 
Federal service--as is the case with our soldiers and airmen in 
Iraq--they are under the command and control of the Federal 
Government.
    There are a little more than 20,000 soldiers and airmen in 
the Pennsylvania Army and Air National Guard. We are proud to 
be, with Texas and California, the largest National Guard in 
the United States of America.
    Since September 11, 2001, of those 20,000-plus soldiers and 
airmen, a total of 13,372 Guard members have been deployed in 
support of Operation Enduring Freedom, Iraqi Freedom, and Noble 
Eagle. More than two out of three of our Guard have been 
deployed in the fight against global terrorism. Today there are 
more than 3,000 members of the Pennsylvania National Guard 
deployed in Iraq.
    When they are not deployed overseas, Guard personnel serve 
in readiness centers, armories, and the Air National Guard 
bases across Pennsylvania. The Guard provides me as Governor 
with a well trained and equipped military force to respond to 
State emergencies such as floods, blizzards, hurricanes, and 
local emergency situations.
    Pennsylvania is home to the National Guard's third Weapons 
of Mass Destruction Civil Support Team. These National Guard 
teams provide the Defense Department with unique expertise and 
capabilities to assist State Governors in preparing and 
responding to chemical, biological, radiological, or nuclear 
incidents, as part of the States' emergency response structure. 
Each team consists of 22 highly skilled, full-time National 
Guard members who are federally resourced, trained, and 
exercised.
    The National Guard is a partnership between States and 
Federal Government. As any of you who have been involved in 
this partnership know, this involves give and take. Today's 
National Guard is supposed to involve day-to-day communication, 
collaboration, and interaction between the State and Federal 
Governments.
    The National Guard Bureau, a bureau within the Department 
of Defense, serves as the channel of communication between DOD 
and the States. And I join with Governor Kempthorne in saying 
that General Blum has done an excellent job in trying to carry 
out that function.
    It is fair to say that the Federal Government is the senior 
partner in this partnership between the States and the Federal 
Government, in terms of the supply, the equipment, and the 
funding it provides for most National Guard activities. But 
what is sometimes overlooked is that the States provide the 
most precious resource of all to the National Guard: the young 
men and women who serve their State and their Nation, and who 
risk, and sometimes give, their lives in service.
    The States recognize how important it is to recruit and 
retain the high-quality personnel necessary to maintain and 
strengthen the Guard. For example, in Pennsylvania we invest 
about $10 million a year in our educational assistance programs 
to provide public service educational grants to new enlistees 
and members of the Pennsylvania National Guard. This is an 
important recruitment and retention tool that keeps the Guard 
strong to accomplish both its State and Federal missions.
    So it is wrong to say that the States do not participate in 
the funding of the Guard? We very much do, in recruitment 
efforts like this and in other benefits that we provide.
    Unfortunately, the relationship between the Guard and the 
States and the Federal Government has broken down to some 
extent. One place where the National Guard partnership between 
the States and the Federal Government broke down badly was in 
the actions of the Defense Department and the Air Force with 
regard to the 2005 BRAC round.
    The Department of Defense and the Air Force chose to ignore 
clear congressional statutes and mandates requiring the consent 
of the Governors with regard to major changes in National Guard 
units. They argued that the BRAC process superseded the 
requirement for input from the States, and that it was 
impractical to ask 54 National Guard entities for input.
    In an incredible effort to justify elimination of Air 
National Guard units and missions across America, the Air Force 
even suggested that the Civil Air Patrol could fill in for the 
Air National Guard. Don't get me wrong: The Civil Air Patrol is 
carrying out homeland security missions and helping us in many 
ways. It is a great organization. But it is no substitute for 
the Air National Guard. It is ludicrous to even suggest that.
    Let me take a brief moment to describe what happened with 
the 111th Fighter Wing of the Pennsylvania National Guard. For 
several years, my staff, the Adjutant General, and the 
Commander of the Pennsylvania Air National Guard had received 
briefings that the 111th, which flies the A-10 Warthog aircraft 
out of the Willow Grove Joint Reserve Base, was likely to 
receive additional mission aircraft as part of the future total 
force planning process. Imagine our surprise and dismay when, 
on May 13th of this year, we received the DOD recommendation 
that the 111th Fighter Wing should be deactivated.
    The DOD recommendation came without a word of advance 
warning. There was no coordination, no request for input, and 
certainly no request for my approval as Governor, for the 
elimination of this important Air National Guard unit.
    The 111th has about 1,000 full-time and part-time military 
personnel. It is based at Willow Grove, right outside of 
Philadelphia, which of course is a key strategic location of 
our State. The 111th does not just consist of pilots and 
airplanes. It has security forces, mechanics, medical 
personnel, and all the rest that make up a modern fighter wing. 
Seventy-five percent of the members of the 111th have been 
deployed in Iraq and Afghanistan over the last 4 years.
    These personnel are also key assets to me as Governor in 
addressing potential threats to the security of our homeland. 
What is more, I believe it is vital to maintain military flying 
operations at Willow Grove to provide a surge capability to 
respond to emergencies in the Philadelphia region.
    Make no mistake: If terrorists again hijacked a plane, and 
that plane was bearing down on Independence Hall or the Liberty 
Bell--two of our three most important national icons--the 
planes nearest to Philadelphia who could intercept those 
terrorist-held planes would be at Willow Grove. The difference 
between their response time and the response time from other 
bases is a matter of minutes but, as we learned on September 
11th, a matter of minutes can cost thousands of lives.
    Congress has mandated that the U.S. Government cannot make 
changes to the branch, organization, or allotment of National 
Guard units located within the States without the approval of 
the Governor. That is found in Title 10 and Title 32 of the 
U.S. Code. The same law provides that I, as Governor, cannot 
disband a National Guard unit that receives Federal funds 
without the approval of the President. The law aptly describes 
the fundamental principles of federalism upon which the 
National Guard is built. Neither the State nor the Federal 
Government can make basic changes to National Guard units 
without the input and consent of the other.
    At least, that is the way it was supposed to work. But the 
Air Force decided that the BRAC law superseded these other 
Federal laws passed by Congress, and that it could completely 
ignore the States in making recommendations to eliminate Air 
National Guard units and missions.
    The 111th Fighter Wing was the only National Guard unit in 
the country actually recommended for deactivation, but others 
were stripped of aircraft and personnel. Aside from ignoring 
what we saw as clear legal requirements, I was completely 
surprised by the Air Force's attitude toward the National Guard 
in general, and to the partnership between the Guard and the 
States in particular.
    An Air Force spokesman testifying before the BRAC 
Commission said it would be unreasonable and impractical to 
expect the Air Force to talk to 54, or even 28, National Guard 
entities in making plans to eliminate units and missions. It 
was almost as if they were saying that, ``Those pesky States 
stand in the way of us getting our job done.'' Somebody even 
suggested that Governors would bring politics into the BRAC 
process--something that, as we all know, has been immune to 
politics in its total existence.
    As Governor of Pennsylvania, I was not going to stand by 
and watch DOD attempt to eliminate one-fourth of the Air 
National Guard force in my State. In late May, I wrote to 
Secretary Rumsfeld, to advise him that I did not consent to the 
proposed deactivation of the 111th. And in early July, Senators 
Arlen Specter, Rick Santorum, and I filed suit in Federal 
court, seeking a declaratory judgment that the DOD violated the 
Governor consent statutes when they commenced action to 
deactivate an Air National Guard unit without the consent of 
the Governor.
    We filed suit not just to stand up to the Guard [sic], or 
to protect the security interests of Pennsylvania; we filed 
suit to protect the vital principles of federalism grounded in 
our Constitution that established the National Guard as a 
military force shared by the State and the Federal Government. 
We also filed suit to stand up for Congress, which had passed 
laws requiring the consent of the Governor for certain changes 
to National Guard units.
    As a result, I was very pleased that Senators Specter and 
Santorum joined me in this litigation, because their support 
emphasized that DOD's actions were not just ignoring the 
Governor's prerogative with regard to the National Guard, but 
also ignoring the direction provided by Congress.
    In the end, Federal District Judge John Pedova ruled in 
favor of the Commonwealth, and held that the DOD's 
recommendation for deactivation of the 111th Fighter Wing was 
``null and void.''
    On the same day that the court decision was issued, the 
BRAC Commission found that the DOD's recommendation 
substantially deviated from the BRAC criteria, and overturned 
the proposed deactivation of the 111th Fighter Wing. The 
Commission also ruled that military flying operations should be 
maintained at Willow Grove.
    We believe the Commission should have stopped there, and 
had no legal right to go forward. But unfortunately, they went 
ahead to recommend that the A-10's assigned to the 111th be 
distributed to other units, even as they encouraged the Air 
Force to maintain the A-10's there. So that set up the 
unbelievably ludicrous proposition that we were going to 
continue to employ and pay and train and equip in other ways 
1,023 airmen and airwomen, but give them no planes to carry out 
their mission.
    Now, Senator Santorum and I have talked to the Defense 
Department, and we are trying to reconcile what is a very 
difficult situation, and one that makes no sense for the 
taxpayers of the United States and the security of the State of 
Pennsylvania. It is my hope that the Defense Department will 
settle this litigation--and as I said, we are the only State 
that was successful in Federal court--and agree to maintain the 
A-10's at Willow Grove.
    In fact, ironically, 12 A-10's are headed to, essentially, 
a graveyard in Arizona; even though those planes are not 
scheduled for deactivation until 2028. Makes no sense.
    Contrary to what I have just outlined, where the 
relationship between the Guard as a State unit and a Federal 
unit broke down, in the aftermath of Hurricane Rita and 
Hurricane Katrina, I think it worked fairly well. Obviously, I 
understand the incidents that Governor Kempthorne talked about; 
but in our experience, it worked well.
    Pennsylvania sent more than 2,500 Guard personnel to 
Louisiana and Mississippi to respond to those emergencies. We 
sent the largest Guard contingent of any outside State. We 
responded promptly. Our Interim Satellite Incident Site 
Communication Set deployed from Fort Indiantown Gap to the 
Mississippi Gulf Coast in the first days after the storms. And 
for more than a week, it provided just about the only form of 
reliable communications in the region. It later redeployed to 
Texas in the wake of Hurricane Rita.
    We sent security and military police forces from several 
units--including, ironically, the 111th Fighter Wing--to 
Louisiana within 24 hours after we received the request for 
support. About 200 Pennsylvania National Guard personnel 
deployed by air to Louisiana, and elements of our 213th Area 
Support Group and our 56th Brigade deployed by convoy to the 
area of devastation within just a few days.
    This is a great example of how the Guard can serve in a way 
that is beyond our borders. I got, personally, tens and tens of 
letters and e-mails from citizens of Mississippi and Louisiana, 
thanking me for sending the Guard, sending it so quickly, and 
for the caliber of service that was rendered by the Guard. I 
believe that, as I said, this was a good example of the best in 
the Federal-State cooperation.
    Now, you have heard Senator, Governor Kempthorne talk about 
what is the second-biggest problem, and that is the equipment 
problem, or the reequipment problem. My testimony is replete 
with examples of Pennsylvania Guard units who went over to Iraq 
and Afghanistan and were forced--and we understand this--to 
leave a lot of the equipment behind; in one case, 10 of 41 
Humvees; in one case, 7 airplanes--7 CH-47D helicopters, excuse 
me.
    The Defense Department has been slow in replacing materiel. 
In many cases, we haven't gotten that materiel back when the 
units have come back. And in many cases, it has been reported 
to me that the equipment that is sent to replace the equipment 
left behind in Iraq and Afghanistan is older, is inferior, and 
in many cases just plain and simply doesn't work. That is a 
second and huge problem, when it comes to the integrity of 
State National Guards and their ability to carry out their 
mission at home.
    If in fact the Guard units are deployed, and I want to 
remind you, two-thirds of Pennsylvania's--that is the largest 
National Guard in the country--two-thirds of those soldiers and 
airmen have served in Iraq and Afghanistan. That is how active 
we have been. We have over 3,000 members there now. The Second 
Combat Brigade left from Camp Shelby, Mississippi, and 4,100 
Guardsmen went over; 2,100 were Pennsylvanians.
    It is our obligation to make sure--and Congress should 
enforce and make certain--that when these Guard units leave 
equipment behind, that they receive commensurate equipment 
quickly and as soon as they return to their States.
    So those are the two problems that I see most graphically, 
and the ones that I think that need to be addressed. As I said, 
we have a number of specific examples about the equipment 
failures in my testimony that I won't belabor you with now.
    But let me tell you that the National Guard has changed. 
When I was a Reservist, Reserve and National Guard were 
considered weekend warriors. The contemplation that we would go 
into active duty theaters like Iraq and Afghanistan was 
literally something no one ever considered. Now, as I said, 
two-thirds of the Pennsylvania National Guard have been 
activated.
    Since August 1st, 15 members of the Pennsylvania National 
Guard have died in Iraq; 15 members since August 1st.
    Of the 2,100 Pennsylvanians whom I said goodbye to at Camp 
Shelby, Mississippi, I said that I hope to see all of them back 
when their mission ended 1 year from the date that we stood in 
Mississippi. Unfortunately, that is not going to be the case.
    The Guard makes tremendous sacrifices. Our personnel 
deserve the best equipment when they are fighting on foreign 
soil, and when they are doing their security missions here. The 
relationship between the Guard and its Federal and State status 
needs to be addressed.
    I salute you, Mr. Chairman, for having these hearings. I 
believe they are very, very, very important. And I wish you 
well in the work ahead.
    [The prepared statement of Governor Rendell follows:]
    [GRAPHIC] [TIFF OMITTED] T4714.020
    
    [GRAPHIC] [TIFF OMITTED] T4714.021
    
    [GRAPHIC] [TIFF OMITTED] T4714.022
    
    [GRAPHIC] [TIFF OMITTED] T4714.023
    
    [GRAPHIC] [TIFF OMITTED] T4714.024
    
    [GRAPHIC] [TIFF OMITTED] T4714.025
    
    [GRAPHIC] [TIFF OMITTED] T4714.026
    
    [GRAPHIC] [TIFF OMITTED] T4714.027
    
    [GRAPHIC] [TIFF OMITTED] T4714.028
    
    Chairman Tom Davis. Governor, thank you very much. Let me 
ask both of you, we know the equipment shortages. I mean, we 
can just look at the funding across the board. But if you were 
to prioritize, what specific equipment are you most concerned 
about? Communications, airlift helicopters, trucks? Is there 
anything you can, if they had to set priorities?
    Governor Rendell. Well, again, for Pennsylvania, which has 
a large Air National Guard, as well--an Air National Guard of 
almost 4,500--the planes and the helicopters are the most 
important. For example, in floods--and we were hit this past 
year with two or three major floods--the helicopters are of 
enormous importance at home.
    For a homeland security mission--and again, the whole 
nature of the Guard changed after September 11th. To say that 
planes in Willow Grove under the command of the Pennsylvania 
Air National Guard might be scrambled to protect the Liberty 
Bell or Independence Hall from airborne assault, that was a 
foreign concept before September 11th.
    So I think the planes the helicopters are the first, most 
important equipment. I think communication equipment is second, 
because that is important, as we showed in Hurricane Katrina 
and Hurricane Rita. And then last, the trucks and vehicles that 
are needed to move personnel--again, as we saw in Hurricane 
Rita. Of the 2,500 Pennsylvania Guardsmen who went down to the 
Gulf, only about 400 went by plane. The other 2,100 went by 
convoy.
    Chairman Tom Davis. Governor.
    Governor Kempthorne. Mr. Chairman, I would add that the 
airlift capability is No. 1. And again, from my testimony, you 
know that they are now recommending that the C-130's go away 
from Idaho. I can show you--I would love to come back and just 
show you my presentation to the BRAC Commission, to show you 
response time, and how there is now a void throughout the 
Pacific Northwest.
    We also need the rolling stock. Idaho is a large land mass, 
very mountainous. If we have an earthquake, if we have 
something of that nature, or floods, the idea of evacuating--we 
are going to have to have a rolling stock. The fact that we are 
leaving over 400 vehicles in Iraq is very problematic.
    Big picture: Mississippi ran out of gasoline for their 
first responders. That was one of the requests that they put 
out to the States. So the idea was, why not take a KC-135, a 
tanker, fly it down there? Well, we then determined that you 
cannot offload it. You need to do an aerial offloading; not on 
the ground. So from Idaho, which is a 6-day trip from 
Mississippi, we sent a convoy of tanker trucks down there. When 
we got the urgent request from Louisiana, we sent a convoy of 
120 vehicles to Louisiana.
    So just as Governor Rendell is talking about response to 
the Gulf Coast, we are talking about the States helping one 
another, the States of these United States, for homeland 
security, or natural disasters.
    Much of our equipment is now in the Middle East. We have to 
have that equipment back in the area of rolling stock; airlift 
capability; communications; and the engineering, if in fact you 
have to repair the bridges, restore the bridges, open up roads. 
I think much of what you saw in the aftermath of Katrina was 
moving devastation aside so that you could get transportation 
realigned.
    Chairman Tom Davis. Let me ask you, the ``Hot Line'' this 
morning has a headline saying, in a rare split with his 
brother, the President, Florida Governor Jeb Bush said he does 
not support Federalizing the emergency response to future 
disasters.
    How do you feel about easing posse comitatus restrictions 
on active duty forces and others performing domestic missions 
in your State?
    Governor Kempthorne. First, I would associate myself with 
the remarks of Governor Jeb Bush. He is right on target. The 
last thing we need when a State has a disaster, or a local area 
within a State, is to have a Federalization of the assets.
    We often say that the solution is always closest to the 
problem. And the idea that somehow Governors would be usurped 
of their responsibilities as Governors and commanders-in-chief 
and that there would be some force that would come in that 
would then take over the control, I do not agree with.
    There needs to be a partnership, a strong partnership, and 
that is what federalism is all about. But the idea of someone 
immediately declaring the posse comitatus, coming in, taking 
over law enforcement--I totally disagree with that.
    Governor Rendell. And let me just add, I think all 
Governors would agree with, Mr. Chairman, what Governor Bush 
said.
    But let me give you an example. And this is not meant to 
place the finger of blame anywhere, but as you know, the 
Federal Government--and we can talk all we want about the 
reasons why this happened--it wasn't until 4 or 5 days later, 
till the Federal Government activated the Army. We responded to 
Governor Barber and Governor Blanco the day after Katrina hit; 
we had our Guard mobilized to go down there.
    If we had waited for the Federal Government's approval, it 
would have been another 4 or 5 days before the Pennsylvania 
Guard could have been ready to go down. And some actually left 
that very next day. The communications team that I talked about 
in my testimony left Tuesday. And if we had waited for the 
Federal Government, we wouldn't have gotten approval until 
Friday.
    Chairman Tom Davis. Thank you very much.
    Mr. Kanjorski.
    Mr. Kanjorski. Let me say, I appreciate the testimony of 
both Governors; but, of course, my Governor is always superior 
to all others. [Laughter.]
    So, welcome to the Congress, Governor Rendell.
    I am disturbed, because I have heard the same problems at 
home about this equipment. And in effect, most of my Guardsmen 
are telling me that they feel that they have been somewhat 
castrated--I will use the term. They are there in spirit and 
body, but they are not capable of functioning as a unit any 
more, without the use of the equipment. And as you so rightly 
say, 75 percent of the Pennsylvania National Guard has gone to 
Iraq, and left the equipment in Iraq. And now they are 
substantially uncovered.
    I want to commend the chairman for having these hearings. I 
certainly, when I get back to the floor, am going to be talking 
to Mr. Murtha. We have to do something on an emergency basis 
here to reequip the National Guards to make them sound. And I 
commit myself to both the Governors to do that.
    And, too, I happen to agree with you, Governor Kempthorne, 
that the closest to the problem is the best solution. This 
whole idea of going Federal--I mean, not that I want to strike 
out at anyone, since I am part of the Federal Government--but 
we didn't get very high scores in Katrina.
    And I think that with every disaster that I have been 
associated with in Pennsylvania, we have seen what the National 
Guard can do. And my constituents sleep a hell of a lot more 
comfortably knowing the National Guard is there, instead of 
waiting for the Army or the Federal Government to come.
    So I commend both of you for coming today, and encourage 
your pursuit of this. And we will do the same thing.
    Chairman Tom Davis. Yes, Governor?
    Governor Rendell. And Congressman, I think you are right 
on. The Congressman used the word ``castrate,'' ``emasculate,'' 
whatever. Our Guards feel that.
    I mean, consider the ludicrous proposition, leaving aside 
the Federal court decision--and we believe the Federal court 
decision mandates that the A-10's stay in Willow Grove. But 
consider what has happened through the BRAC process and the 
position that DOD has at least temporarily taken. We have 1,023 
trained airmen and airwomen; 75 percent of whom have flown 
combat missions. The 111th has flown 2,500 combat missions in 
Afghanistan and Iraq. And they are going to be paid by the 
Federal Government. They are going to be equipped in all other 
ways by the Federal Government. Yet they have no planes, if the 
BRAC decision and the DOD recommendation stands and withstands 
the court challenge.
    That is a huge waste of taxpayers' money. And think of what 
it does to the morale of those people who have flown all those 
combat missions, to take their planes away.
    I would suggest, respectfully--and nobody knows the 
pressures of balanced budgets more than we do, because we by 
law have to balance our budgets--I would respectfully submit, 
though, that you cannot fight global terrorism abroad or at 
home on the cheap.
    Governor Kempthorne. Mr. Chairman, may I also respond to 
the Congressman?
    Chairman Tom Davis. Surely.
    Governor Kempthorne. Two points. One with regard to the 
attitude of the Guard members. I will just say that I see the 
communications back from the people in Louisiana and 
Mississippi, also, that are so grateful. And what I hear from 
our Guard members down there that are serving is this is one of 
the greatest deployments that they have ever participated in, 
because they are helping fellow Americans. They are on home 
soil.
    And there is such a ``can-do'' attitude by Guard members, 
they bring such skill sets, that even if they do not have all 
of the equipment, the job they do is just exemplary. We hear 
that from the brigade that will be coming home, that is Guard, 
that is being replaced by active Army that says, ``We do not 
have the skill sets that you have here in the Guard.''
    The other point I would make follows onto Governor Rendell. 
Think of the irony of this. Today, 62 percent of the combat 
soldiers in Iraq, the Middle East, are Guard and Reserve. So 
you have brigades that then come home. They are at an all-time 
level of readiness, training, camaraderie, cohesiveness. What 
could be better for homeland security? And yet, to deny them 
the very equipment, so that we can retain that level of 
readiness, would be tragic for the well-being of this Nation.
    Mr. Kanjorski. Thank you.
    Chairman Tom Davis. Mr. Souder.
    Mr. Souder. Thank you, Mr. Chairman. I appreciate your 
comments today. We are hearing in each State the problem with 
our Guards.
    Governor Kempthorne, in your statement you talked in 
particular about what the Army had left. Do you know how much 
of things like the trucks and the radios, the Humvees and the 
radios and other communication equipment, that you also use for 
domestic?
    According to the testimony we are going to get in the 
second panel, it says some of those Guard units had additional 
materiel to go over. In Indiana, I guess 70 percent of the 
materiel is coming back. But do you know what percentage of 
that materiel in Idaho belonged to the units before they went 
over?
    Governor Kempthorne. Congressman, you mean that when the 
brigade arrived in Iraq, the equipment that was there, waiting 
for them?
    Mr. Souder. Or was shipped in, knowing they were going to 
be deployed.
    Governor Kempthorne. Congressman, I cannot give you a 
percentage. I will tell you that it is the majority of our 
vehicles. It is over 400 vehicles that will be left in Iraq; 
much of which was brand new equipment, new trucks, etc. Those 
will remain behind.
    We were still able to put together 120 vehicles to go to 
Louisiana and, significantly, to make sure, as Governor of 
Idaho, that I still have rolling stock and personnel in the 
event of a natural disaster in my State. But you can well 
imagine, it stretches us very thin. And that is the current 
situation: we are stretched thin.
    Mr. Souder. Before I ask Governor Rendell the same 
question, have any of your units been deployed twice? And how 
did that factor in?
    Governor Kempthorne. This is the first deployment of the 
brigade. I will tell you that the Idaho Air Guard are on 
continual deployment. Many of those are 8, 9, and 10 
deployments of those personnel.
    Mr. Souder. But can I clarify? My Air Guard unit that was 
deployed I don't believe had the same equipment problems as the 
Army. In other words, they don't have to leave their materiel.
    Governor Kempthorne. I believe that is correct.
    Mr. Souder. Any of the Army groups that were deployed 
twice, how did they get resupplied then? Do you know? Governor 
Rendell, do you have any----
    Governor Rendell. Again, most of the redeployment in 
Pennsylvania was the Air National Guard. But in my testimony--
and I didn't read all of the different examples--but there is 
one example where initially all seven helicopters that this 
helicopter unit had were left behind, and they are still over 
in Iraq. We have gotten five replacements, but it has been 
reported to me that the replacements are older and not nearly 
as effective and as efficient as the vehicles we left behind.
    If we went over again, if that unit went over again, query 
whether they would get the original vehicles back, or whether 
we would take some of the replacement vehicles with us. But the 
redeployment tends to be more Air National Guard; although some 
of our ground forces have been redeployed. And I think those 
that have been redeployed catch up with some of the equipment.
    Mr. Souder. And it doesn't change the fact that we need to 
resupply for our State Guards, but do you know how much of the 
equipment that has been left behind has been damaged; as 
opposed to just not being able to be brought home?
    Governor Rendell. I don't know that. But I can get you and 
submit to the chairman those figures from the adjutant general.
    Mr. Souder. I would appreciate that. I know that the 
Humvees are made in the district next to mine, but my district 
supplies most of the parts. I believe 40 to 50 percent of them 
are damaged, and are going through repair. And I know in 
Indiana we do some of our own repair, because I have seen some 
of the equipment coming back and then we are kind of 
reconditioning it.
    Do you have that process as well in your two States? And 
are you getting the things that are damaged back, and in fact 
they are leaving the good things there?
    Governor Kempthorne. Congressman, no, I do not believe we 
are. And also, just one other element. Much of the equipment 
that is being left there is because it has been up-armored, and 
so it provides greater protection for the personnel. I do not 
question--I would not suggest that I want to bring back that 
Humvee that in any way puts at risk the soldier who replaced 
the Idaho Guard member who comes home; nor would the Guard 
member. So I understand the rationale.
    What I do not understand is lack of rationale: that you 
don't reequip the National Guard based on homeland security, 
based on further deployments, based on natural disasters that 
we respond to. It would be tragic.
    Governor Rendell. And that is absolutely correct, 
Congressman. And again, it goes back to what I say. You cannot 
do a mission, fight terrorism abroad--and the 62 percent figure 
for Reserve and Guard is right--you can't do that dual mission, 
and protect the homeland, on the cheap. And that is the bottom 
line. And we have to come to grips with that.
    Mr. Souder. Thank you.
    Chairman Tom Davis. Thank you very much.
    Mr. Ruppersberger.
    Mr. Ruppersberger. Yes. I would like to keep following 
through on that issue. Thank you all for being here. And there 
are a lot of issues that we have to look at on a broader basis. 
Do you have concerns about the effect of the overseas 
deployments on your States' abilities to respond to natural 
disasters or conduct homeland security missions?
    Governor Rendell. No. Even though there were over 3,000--
almost 4,000--Pennsylvania Guardsmen in Iraq and Afghanistan at 
the time we deployed 2,500 to the Gulf--which, as I said, 
Congressman, was the largest of any State Guard that went to 
the Gulf--that still left us with a little bit over 13,500 
Guardsmen at home in Pennsylvania to carry out whatever 
missions we needed there.
    And although we have complained about equipment, I echo 
what Governor Kempthorne said. It still left us--even with the 
equipment left behind--it still left us with enough equipment 
to respond to anything other than a cataclysmic event.
    Governor Kempthorne. And Congressman, I would just add this 
element. We have an agreement with General Blum and the 
National Guard Bureau that no State will be drawn below 50 
percent personnel without the agreement of a Governor. And so 
we monitor this closely.
    Mr. Ruppersberger. Is that a formal agreement, or informal? 
Is that with every State?
    Governor Kempthorne. It is with every State.
    Mr. Ruppersberger. OK.
    Governor Rendell. But that doesn't apply to equipment. And 
I know Governor Schwitzer from Montana has told me that at one 
point his planes, that are often used for forest fires and 
things like that, about 90 percent of his air capacity was 
abroad.
    Mr. Ruppersberger. Let me ask you this. Right now, the 
Department of Defense does not consider equipping the National 
Guard for homeland security or emergency response and its 
missions there; although they did make an exception for 
Katrina. Do you believe that DOD should assist States with 
resourcing equipment for homeland use?
    Governor Rendell. I do, absolutely.
    Governor Kempthorne. We would love to have it.
    Governor Rendell. And you know, not only would we love to 
have it, I think we all know the world has changed after 
September 11th. And the National Guard has changed after 
September 11th, as well. There is absolutely no doubt about 
that.
    And it is clear that the BRAC Commission, if you looked at 
the military criteria--the criteria that were set up were 
called ``military value criteria.'' Homeland security was one 
of the criteria that the Commission was supposed to pay 
attention to. But from my view of all of the hearings, it 
played very little part in the decisionmaking process. It was 
basically ignored.
    Governor Kempthorne. I totally concur that DOD has a part 
to play financially. It should not come with additional strings 
attached. This should not mean that there is a Federalization 
of the troops.
    Also, by homeland security, by being prepared, those are 
the very people that are being deployed to Iraq, performing 
marvelously because of that training that they have received 
here in the States. So, yes, it is to the benefit of all of us, 
including DOD, against all enemies, foreign and domestic.
    Mr. Ruppersberger. What procedures or steps have your 
States taken to identify the equipment needed to respond to 
natural disasters or security missions? And what types of 
equipment do you think are most needed?
    Governor Kempthorne. I sit down with the Adjutant General 
of Idaho, General Lefrenz. We go over different scenarios. For 
example, we have been experiencing a recent swarm of small 
earthquakes in one part of our State. So we ask ourselves, 
``What could that lead to? What are our resources? What rolling 
stock do we have? What personnel do we have? What have we 
predeployed? What about the infrastructure of bridges? If we do 
lose that bridge which is the major link between the north and 
the south part of our State, how do we quickly get into that?'' 
So we continually monitor scenarios and ensure that we have the 
capabilities.
    I will also mention that the Emergency Management 
Assistance Compact [EMAC], is critical, because we may reach a 
point, just as Louisiana and Mississippi did, that I may need 
to ask other Governors for help.
    Mr. Ruppersberger. Let me ask one question. And this goes 
back to Katrina and the whole issue which is going to be out 
there for a while about the role of the Federal Government in 
natural disasters. When you have a situation where you have 
like what happened in New Orleans, where both the local and the 
State were totally overwhelmed--and I believe the President did 
declare a disaster before the hurricane occurred--now, when you 
have one decisionmaker, whether that be the mayor or the 
Governor, and for whatever reason--for not realizing the 
magnitude of the problem, or feeling that, ``This is our role; 
we must take care of it,'' when they are totally overwhelmed--
do you believe that there should be a mechanism where the 
Federal Government has to go in and help Americans, if they 
have the equipment and the ability to do that?
    And if you were in that situation, how would you all handle 
it? And what systems do you believe--it is all about systems--
should be in place so that there can be immediate reaction to 
save American lives right away, and not about the inability to 
mobilize or whatever?
    Governor Rendell. I think putting the systems in place is 
the hard part of that, Congressman, because of the nature of 
our Government and our Constitution. And even in the 
interrelationship between a Governor and a mayor, there are 
only certain instances where I have the power to override a 
mayor in Pennsylvania on a decision like evacuation.
    But I think that you could look at the power the President 
has when he declares an emergency. That would be the time. That 
is the time when I get my powers to override mayors, for 
example. That would be the moment that I would look toward 
giving some additional powers, as long as they do not hinder 
the Federal relationship.
    But I think it is more than just systems. It is people. And 
if the situation had occurred in, let's say, State ``X,'' and I 
thought that State ``X'' needed Federal troops and the people 
of State ``X'' needed Federal troops, I would have picked up 
the phone and I would have said, ``Governor Jones, sending in 
the 82nd Airborne. You can stand with me and say 'That's a good 
idea', or you don't have to. But I am sending in the 82nd 
Airborne, because you are going to need them.''
    I think we have to develop some form of leadership. And if 
you look at the way FEMA and the State emergency management 
agencies are supposed to work, we have that, I think, in most 
cases. And obviously, in Katrina there were breakdowns. But in 
most cases--and I think the two Pennsylvania Congressmen would 
agree with me--when we had serious flooding all over the State, 
I thought FEMA did a great job working with PEMA to get not 
only aid, but to get reimbursement quickly. I thought that was 
as good an example of the joint Federal-State response as 
possible.
    But if Congress is looking to fashion something to give the 
President a range of powers, it would be consistent with the 
declaration of the emergency. That is the way we structure it 
here. And of course, when General Honore was designated as in 
charge of the efforts, I think everyone fell into place. 
General Honore became the commander of the Pennsylvania 
National Guard, in the sense of deployment, etc., and we 
followed that, as well. But I would focus on the power that is 
given to the President to make those declarations, if you 
wanted to buttress it.
    Mr. Ruppersberger. So you do believe that power should 
exist and that the President should have the ability in a 
situation where it is overwhelmed; whether or not the leader--
the Governor or the mayor--understands that?
    Governor Rendell. I think under certain unique situations--
and it should be framed carefully--but I think that would be 
the place to do it.
    Mr. Ruppersberger. How about you, Governor?
    Governor Kempthorne. I believe it would be an extreme 
situation, because it signals a breakdown of government, of the 
system that we have all come to rely upon. I think it would be 
a dire, dire situation if that ever happened. It should be at 
the invitation of a Governor.
    Mr. Ruppersberger. Even in the sense of an emergency 
where--the total overwhelm, the facts are there, and the lack 
of action will cost human lives?
    Governor Kempthorne. I would, again, use the term 
``extreme.'' When we think of pandemic, when we think of some 
of these scenarios with potential flus that may have an 
outbreak, the ideas of quarantines, etc.--very extreme. But I 
think that should be the last measure taken. Because we are 50 
sovereign States, comprising the United States, and the 
Governor should be the individual that invites in.
    When you do have regular troops that are brought in, there 
is now a concept being developed of ``dual hat,'' so that your 
National Guard general can then have operational control over 
the military that is brought in. I believe that is very 
workable.
    There is one other thing, Congressman, that I would like to 
note. And that is when the 82nd and the First Cav were brought 
into New Orleans, National Guard, the 82nd Airborne, First Cav, 
could communicate with one another with their radio equipment; 
the National Guard could not get in on that frequency. That is 
a problem.
    Mr. Ruppersberger. I would like to agree that General Blum 
is doing a great job running the National Guard.
    Chairman Tom Davis. OK. Thank you.
    Mr. Gutknecht.
    Mr. Gutknecht. Thank you, Mr. Chairman. I think a lot of 
the questions that I was going to ask have already been asked.
    I would like to agree with Governor Kempthorne, and it is 
something we sometimes forget in this city, and that is that 
the Federal Government was created by the States; and not the 
other way around. And I think we have to be very careful, and 
try to create systems that, ``We know when someone is 
overwhelmed.'' Obviously, there were some breakdowns done in 
Louisiana, but I think we have to be careful we don't use that 
example as an excuse if we are going to send in the 82nd 
Airborne.
    Let me come back, though. I think one other point I was 
going to make--and I had a welcome home ceremony to some 
Reservists this weekend. And they are an engineering group, and 
normally their parking lot is absolutely filled with equipment. 
And there was one lonely, little beat-up truck just out in 
their area where they keep all their equipment. And it did seem 
funny that here is the unit back, and they really couldn't do 
much in terms of exercises, because all their equipment is 
still over in the desert.
    But I want to come back to, I think, a more serious 
problem, and ask your opinions about this. One of the concerns 
we have heard expressed--and we in Minnesota, I think, the 
numbers that I hear are pretty good, in terms of retention and 
recruitment. But this off-tempo thing, when you are sending 
people back and forth as often as we are to places like Iraq 
and Afghanistan and other parts of the world, not only are we 
wearing out the equipment, I think we are wearing out our 
personnel. How are you doing in your two States in terms of 
recruitment and retention of Guard members?
    Governor Rendell. Well, I would say in Pennsylvania 
retention is remarkable. I can't say enough about the men and 
women of our Guard, and I think it holds true around the 
country. As worn out as they are, as difficult as it must be, 
our retention rates are terrific.
    I was at a welcome home ceremony in Chillington, PA, just a 
couple of months ago, and this ceremony was about 2 months 
after the troops had physically come back. And everyone got a 
special medal, and I presented it with the commander. And they 
came up one by one. Two people came up in civilian clothes. 
Their service had run out, and they weren't retained. And one 
of the two came up to me afterwards with his wife, and he 
apologized to me. He said, ``I wanted to re-up, but she 
wouldn't let me.'' And you know, given the multiple 
deployments, you can understand that from a wife's perspective.
    But the retention and the morale remain tremendously high. 
It is just--it really is remarkable. You know, these days, we 
are all so jaded, there is not much that inspires us. It is 
almost inspiring.
    But recruitment is a much, much, much different case. 
Recruitment, we are going to have to keep building up 
incentives. As I told you, in Pennsylvania, we have made a 
tremendous educational incentive that we pay for, to get people 
to come into the Guard. But notwithstanding that, recruitment 
is much more of a challenge than retention.
    Governor Kempthorne. Congressman, really, I would echo much 
of what Governor Rendell said. And there is a schedule--be it 
informal--but the concept that a brigade would not be required 
to go back any sooner than 6 years, that would be a normal 
cycle. I think anything more frequent than that, then you are 
going to have problems with the retention of families, etc.
    Morale is extremely high. The brigade from Idaho are 
extremely proud of the progress which they are making. They 
answered the call to duty. They are proud to have done so. When 
they come back, it will be to a heroes' welcome. And again, 
morale is extremely high.
    I would add this that we all need to think about. With 
demobilization, this is the largest single deployment ever in 
the history of my State; therefore, it is the largest single 
demobilization. We need to also be sure that we are in a 
support for those troops that have come home--post-stress 
disorder--to make sure that the support mechanism is there.
    For 2 years, we have taken these wonderful people, and we 
have now made them warriors. They have changed. They are going 
to come home changed. Their families have had to cope. They 
have had to change. And now they are going to come back 
together. The world has changed at home. And so we need to help 
them with those expectations, with their concerns that they go 
through.
    With the National Guard different than coming back and 
going to the fort where they live, they are dispersed 
throughout our rural communities. It is tough for them to go 
down to a coffee shop and say, ``I am having trouble at night. 
I am having nightmares.'' Because in the coffee shop, maybe 
nobody went with them.
    I would also just say, one of the toughest assignments that 
I have heard from our Guard members are those that have not 
been asked to deploy. They want to be with their comrades. They 
are an awesome organization.
    Mr. Gutknecht. Thank you.
    Chairman Tom Davis. Ms. Watson.
    Ms. Watson. I want to thank both Governors for coming and 
sharing with us. I have been concerned about the increasing use 
of our National Guard to fight in Iraq. I think it was so 
appropriate that you were able to respond and come to our own 
Gulf Coast and help out there. It is an absolute essential use 
of our National Guard.
    I have been reading through our background materials on 
under what title you are called up, and how long. And what 
bothers me is the equipment left behind. But more so than that 
are the families and the jobs left behind.
    What impact have you experienced--and I would like both 
Governors to respond--with your National Guard spending 
additional time off our shores, and leaving equipment off our 
shores? There are going to be more Katrinas and Ritas. In fact, 
one is headed to the Florida coast at the moment. And I think 
when we talk about homeland security, we ought to have not only 
the forces, but the resources to protect our homeland. I also 
am worried about the families and the jobs that are left 
behind.
    So can you respond as to the overall effect of your 
National Guards being called up for extended periods of time 
off our shores?
    Governor Kempthorne. Congresswoman, I appreciate what you 
have said. I will affirm that National Guard members would tell 
you they are soldiers. And they are awesome soldiers. That is 
my editorial comment.
    I believe that their level of morale is the highest it has 
been, because they are doing something that they believe in. It 
is helping freedom. It is ensuring that if we can somehow bring 
stability to that troubled part of the world that used to be 
called the cradle of civilization, it allows the children back 
home to still grow up with peace, and to have dreams and to be 
able to pursue those.
    I tell them, it is so ironic. As they are hugging and 
kissing their little children, as mom and dad are deployed to 
go overseas, by doing that, they are ensuring that those little 
children are going to continue to grow up in freedom in the 
United States.
    Ms. Watson. Can you address the economic impact of the 
extended stays?
    Governor Kempthorne. Yes. I will tell you that I think 
another group that needs to be saluted are the employers; what 
they have been asked to do, and how they have stepped up to 
make sure that those jobs will be there for the Guard members 
when they return.
    Also, it is very important that we have raised funds for 
family emergency situations, so that if a family has a problem, 
we have the money to step forward and to help that family so 
that the soldier can remain focused on his or her mission, not 
worry about a family financial situation at home.
    Ms. Watson. Governor Rendell, is that the same situation in 
Pennsylvania?
    Governor Rendell. If I can add, I think there are severe 
financial hardships that are put on Guard families. We have the 
same emergency fund, and that helps in emergencies. But on the 
day-to-day hardships, you take--let's say it is an Airwoman, 
and she is activated. And she is the breadwinner, and earning 
$35,000 a year for that family. And obviously, her family takes 
a tremendous financial hit by her service. Even if the employer 
keeps the job available, the employer doesn't pay the 
differential.
    We are working on legislation in the Pennsylvania State 
Legislature that will tax credit employers for paying 25 
percent of the differential. But even if that gets through, it 
is only 25 percent of the differential.
    Then you have things like health care. You have things like 
student loans. A lot of these Guardsmen and women are repaying 
student loans. We have put legislation in that freezes their 
obligation to make those payments while they are abroad serving 
the country, or down in Katrina for any length of time. While 
they are on active duty, we freeze those payments.
    But the big gap--and something that I think Congress should 
take a look at doing, now that the Guard and the Reserve, too, 
are playing much bigger roles, 62 percent of the force--is 
filling the gap between what ``John Jones'' or ``Mary Smith'' 
was making at the time they were called to active duty, and 
what they are making with the service. I think that is an area 
that I would love to see the Federal Government look at. The 
State government can do certain things, as well. But together, 
we should take care of that problem.
    No Guardsman's or Guardwoman's family should have--in 
addition to the hardships and the stress of actually fighting 
and being abroad, they shouldn't suffer a financial hit as 
well.
    Ms. Watson. Yes. I know a difference--is my time up, Mr. 
Chairman?
    Chairman Tom Davis. Your time is up. I will give you one 
last question.
    Ms. Watson. OK. I know there is a difference from State to 
State. One of the problems I face in my district, Los Angeles, 
CA, is that the Guard who were in school tend to lose that time 
from their course work, and then have to go back and start all 
over again.
    And so we do have some other problems besides equipment and 
readiness, preparedness. And I just wanted to hear directly 
from the States as to how they impact.
    Thank you, Mr. Speaker [sic], for the additional time.
    Chairman Tom Davis. Thank you.
    Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman, and thank you for 
holding this hearing. I look forward to the second panel every 
bit as much as the first.
    I am a little confused, though, on some of the testimony. 
Governor Rendell, if the BRAC Commission base realignment and 
closure had sent you 50 A-10's, would you have refused to take 
them as inappropriate to take from another State? If they came 
from California, would you have defended that how dare the Air 
Force move California assets into your State and provide those 
Federal jobs and opportunities?
    Governor Rendell. Well, I think, as a practical matter, the 
answer to that is, no, I don't think any State would.
    Mr. Issa. So isn't your basic objection to losing the A-
10--a questionable aircraft in today's environment, anyway--
really all about simply wanting to have, as something like the 
ninth-largest State, the third-largest National Guard; not 
wanting to lose any of that?
    Governor Rendell. No. First of all, it is founded on a 
clear--you, as the Congress, passed Title 32, which said 
nothing could be done of any significance to the National 
Guard, clearly not deactivation or----
    Mr. Issa. I mean, you actually quoted the Constitution.
    Governor Rendell. The militia clause of the Constitution, 
and this Congress--not this Congress----
    Mr. Issa. Well, I will quote that. ``A well-regulated 
militia being necessary to security of a free State, the right 
of a people to keep and bear arms shall not be infringed.'' 
Where does it say the Federal Government is supposed to spend a 
nickel? What if we just said, ``Keep the A-10's, but you pay 
for them?'' Would anything be wrong with that?
    Governor Rendell. The Congress said that in Title 32.
    Mr. Issa. We also passed BRAC.
    Governor Rendell. Right, but----
    Mr. Issa. Ultimately, whichever preempts--you know, I 
appreciate the fact that you have gone to court.
    Governor Rendell. And the Federal court decided that BRAC 
did not preempt Title 32, for a whole lot of reasons.
    Mr. Issa. But your position is that your preferential 
amount of National Guard substantially paid for by the Federal 
Government is a right that cannot be taken away? I can't move 
those? The Federal Government cannot move them to another State 
unless you decide that is OK?
    Governor Rendell. That is what Title 32 says, and that is 
what the Federal court has said, because Congressman----
    Mr. Issa. Would it surprise you to know that I will seek to 
change that, the idea that we should have to continue to 
subsidize and pay, and not be able to move it from State to 
State because a Governor who has a preferential position in the 
amount of their Guard should continue to do so?
    Governor Rendell. Well, Governor--I mean Congressman, let 
me say, No. 1, you would have to change Title 32, and you have 
the right to try to do that. That is No. 1. And No. 2, you 
would have to do something to ensure our ability to protect our 
homeland.
    Again, the 111th is the only Air National Guard unit in the 
southeastern part of the State. That is our most populous part 
of the State. That has two nuclear reactors. It has all of 
these national icons. And we have a duty. I have a duty as 
Governor to protect our State.
    Mr. Issa. Sure, Governor. And with all due respect, your 
responsibility is from your pocketbook; not from the Federal 
pocketbook.
    Governor Rendell. And exercise that, when in the prior BRAC 
rounds BRAC decided that it wanted to deactivate Fort 
Indiantown Gap as an air base. We stepped up and said, ``We 
will pay to run Fort Indiantown Gap as an air base.'' Everyone 
agreed that was a good idea, and the planes were left.
    We have offered to run Willow Grove as a State National 
Guard facility--to pay for the upkeep, etc.--as long as the 
planes are kept there. I mean, why would you want--why would 
you want--to be paying the salaries of 1,023 Airmen and 
Airwomen, and not give them planes?
    Mr. Issa. Look, I have no problem with us talking about the 
decisions of the BRAC. My question was your questioning of the 
Constitutional ability to move federally paid-for assets.
    Governor Rendell. It is different than a Reserve unit. You 
have to understand the difference. And it comes from the 
founders of this country. The militia was first and foremost a 
State militia. It can be Federalized, but it is first and 
foremost a State militia. We are all called ``commanders-in-
chief'' of the State militia.
    Mr. Issa. I have no problem, and I am sure that----
    Governor Rendell. If we were to pay for it, for example--
let's assume you were to transfer the whole bill to us. Then 
what justification would there be for ever Federalizing them?
    Mr. Issa. I would certainly say that the A-10's that have 
been parked in the desert, if you want them back and you want 
to go get them, we can make arrangements to do so. But you 
would own them.
    Governor Rendell. But with respect----
    Mr. Issa. And, no, we wouldn't want to Federalize them.
    Governor Rendell [continuing]. If we paid for the entire 
National Guard, how could the Federal Government have any claim 
to Federalize them in times of--and remember, this is the 
National Guard unit that two-thirds of the members have served 
multiple deployments to Iraq and Afghanistan. You are paying 
for them because you have the right to come in and Federalize 
them and use them to fight foreign conflicts. And the way that 
this administration is running this war, the National Guard is 
becoming more and more a part of the Federal Government.
    Mr. Issa. My time has expired. Hopefully, there will be a 
second round. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. I thank you for 
calling two important Governors in to give us some of the 
insights we really need as we fight our wars. This is a war on 
two fronts. And I appreciate the testimony of Governor 
Kempthorne and Governor Rendell.
    I have to say a special ``Hello'' to my good friend, 
Governor Rendell, who has been not only a good friend of mine, 
but a good friend of the District of Columbia. He did so well 
in bringing Philadelphia back from economic crisis that the 
citizens of Pennsylvania said, ``Wow!'' and made him Governor.
    And I just want you to know, Ed, all we did in bringing 
D.C.--which is now in extraordinary good health--back is to 
copy what you did in Philadelphia.
    I have a question for you both. By the way, Mr. Gutknecht 
raised an interesting point, a Constitutional point, to which 
you both responded, about who knows best; after all, the States 
created the national government. And of course, he is right.
    I would suspect that your replies, which went to extreme 
cases, would be not so much in natural disasters, but in a 
terrorist disaster, where the President and the Federal 
Government had information and intelligence that no Governor 
could have, and maybe time was of the essence. I have the 
feeling that is more likely to be the kind of circumstance 
where the Federal Government moves in than a natural disaster.
    I want to ask you about how we can make do. You all, I 
think, can really help us. One of the reasons that support for 
the war in Iraq is falling away is that there is this sense of 
the American people that there is some robbing of Peter to pay 
Paul. People are generally very favorable about helping the 
Iraqi people, but the more they think that there is some 
sacrifice being made for themselves over too long a time, the 
less support there is for the war.
    And one of the ways, it seems to me, to deal with this 
period is to see how we can do what Americans always try to do: 
do everything at once.
    My question for you comes from the fact that I represent 
the Nation's Capital, and so I am always concerned about two 
kinds of disasters. One is the disaster that we are perhaps 
greater at risk than most, and that is a terrorist disaster. 
And then there is the other disaster, the kind that--well, Ed 
Rendell is in my region, so he knows about those: hurricanes 
and floods and the rest.
    I am very close to my own National Guard. Just this past--
it was October 13th, we deployed, for yet another time, some of 
our MPs. They are in high demand. You could imagine why we have 
more MPs, though; because it is the Nation's Capital. And they 
would be in especially high demand here in the event of any 
kind of disaster, natural or terrorist. So there they go again.
    My generals tell me that some have been deployed two or 
three times in the last 2 years. My generals tell me, my D.C. 
National Guard generals tell me, at least 70 percent of the 
Army National Guard have been deployed multiple times to Iraq, 
Afghanistan, and Guantanamo. Sometimes there is one deployment 
Stateside. By that, they mean perhaps Guantanamo.
    I was interested. For example, Governor Kempthorne, you 
talked about your experience. I am looking at your written 
testimony, where you speak very highly of Idaho having sent 
more, a greater proportion, of National Guard to the Gulf Coast 
than any other National Guard. And there is great applause, it 
seems to me, due the compact that you Governors have among the 
States, where you come to the aid of one another. And that 
apparently happened just like that, and no question asked, and 
everybody was on the ground.
    You also say, Governor Kempthorne, that when you got there, 
there was a lot of confusion in the Gulf Coast--Houston and 
Meridian. There had been an urgent request to evacuate the 
frail elderly. You had identified more than 400 nursing beds. 
Some problem in even getting releases; had to go all the way up 
to the Governor.
    This is what my question is. We talk about borrowing 
equipment. I am concerned that every time my guys and girls go 
over, whatever new equipment we get goes over. So we are in an 
unending lose-lose game, because we can't keep any of it.
    Beyond that, the wonderful borrowing of National Guard 
means, however, that whatever advantage, in either a terrorist 
disaster or a natural disaster, that comes from the fact that 
you have National Guard who have been practiced in what to do, 
are not where you imagine them to be. They are abroad. This is 
what happened to Governor Kempthorne. And his people went to a 
completely new place, and they didn't know the place as well. 
They wanted to do their mission, and they had to go through 
what you had to go through.
    With equipment gone, with personnel unfamiliar with other 
States, if we have to borrow--we would have to borrow from, I 
don't know, Maryland, Ohio, you in Pennsylvania--what are we to 
do, and what do you do--what did you do, what can be done--if 
in fact we need Guard personnel in territory where they have 
never been before, have no idea about anything about that 
territory?
    I mean, how useful can they be? And what would you suggest 
we do to shore up the possibility that for some time we may be 
increasingly using, at least in the event of a natural disaster 
or a terrorist disaster, personnel from other jurisdictions?
    Governor Kempthorne. Ms. Norton, thank you very much for 
the question. And, too, as a citizen, may I thank all of my 
fellow citizens from Washington, DC, and their deployment 
schedule. I know they are doing just tremendous service for all 
of us.
    I jotted down a few things as you spoke. One are the 
lessons learned. You referenced one of the situations that we 
experienced. I would note, we use the Air Guard to take food 
and water. It was critically needed. But on that same aircraft, 
we put from the private sector the emergency room physicians 
and the nurses. So it is a partnership that goes down there.
    Lessons learned: One of them is that we now believe that if 
it is something out of the ordinary, if it is sheer manpower, 
if it is to go and repair a breach in a dike, it is just sheer 
manpower and equipment.
    But if it is something that is a niche, if it is to help 
the frail elderly, if we can get an advance team to do the 
triage, to get on the ground first--we did this in Louisiana, 
when we received an urgent request from Louisiana to send 
additional Guard members. We sent an advance team, so that when 
the convoy arrived, we immediately knew where they were 
assigned and what their responsibilities were; so that there 
was not just a gathering of hundreds of Guard members and then 
trying to sort it out. So order, by sending the advance.
    The EMAC process: It does work, but one of the things that 
we found is that it needs to be specific so that if you are 
going to indemnify--if you are going to have reciprocity of 
people with credentials, that in Idaho we will accept people 
from Louisiana who are professionally credentialed, that may 
need to be noted in the EMAC; so that we don't run into this 
confusion of who is Federalized and who isn't. But I would hope 
that the Federal Government could look at that whole process, 
and streamline that.
    Chairman Tom Davis. Thank you very much. Your time has 
expired.
    Mr. Shays, we have a series of three votes, and the panel 
will be over at that point.
    Mr. Shays. Yes, I am going to just be 2 minutes.
    Chairman Tom Davis. Well, you can yield, then, to Mr. Dent.
    Mr. Shays. I am told that General Honore was never in 
charge of the National Guard. Not a major point----
    Governor Rendell. I don't think in a formal way.
    Mr. Shays. OK.
    Governor Rendell. But I think in a deployment way, people 
looked to it.
    Mr. Shays. But he wasn't in charge. I would like to know 
from both of you, do you think DHS should assist States in--no, 
forget that one.
    The one I want is just the NORTHCOM Control was established 
to provide command and control over Federalized emergencies in 
the United States. Has anyone from NORTHCOM or DOD asked you 
specifically about your States' needs and assets? Have they 
asked you for your input at any time? This is NORTHCOM. I will 
start with you, Governor Kempthorne.
    Governor Kempthorne. If we have had requests from NORTHCOM?
    Mr. Shays. Yes.
    Governor Kempthorne. I will tell you----
    Mr. Shays. To ask your needs, etc. Has there been a dialog?
    Governor Kempthorne. Congressman, Shays, approximately 18 
months, 2 years ago, we had General Eberhardt from NORTHCOM, 
who came and met with the National Governors Association, where 
we discussed the whole process. I cannot tell you----
    Mr. Shays. Right, at the Governors' association, but has he 
ever met with your State and your National Guard people, to 
your knowledge?
    Governor Kempthorne. I have not personally had 
conversation.
    Mr. Shays. How about you?
    Governor Rendell. And I haven't, either, but I can get that 
information from our adjutant general.
    Mr. Shays. It would be good to know. I mean, the bottom 
line is, we set NORTHCOM up to focus on protecting the North 
American continent, and it would seem logical that there should 
be this interaction with the States on this kind of issue. I 
thank you, and I would be happy to yield to Mr. Dent.
    Chairman Tom Davis. The gentleman from Pennsylvania.
    Mr. Dent. Thank you, Mr. Chairman.
    Welcome, Governor Rendell, Governor Kempthorne. Good to see 
you here. Governor Rendell, I am pleased to report to you that 
I located one of Willow Grove's aviation assets in Kuwait when 
I was there this summer--big green and black stripes on the 
tail, with ``Eagles'' logo right on top.
    Governor Rendell. There you go.
    Mr. Dent. Just thought you would appreciate that. Just very 
quickly, I was part of the hearing yesterday with Governors 
Bush, Perry, and Napolitano, discussing the Federal role in 
emergency response. And all three categorically said ``No'' to 
revisiting posse comitatus. I believe both of you have said the 
same thing.
    And just as a point of clarification, Governor Rendell, you 
indicated there might be some circumstances where there would 
be a greater Federal role, even if perhaps the Governors 
weren't willing to accept that assistance at that particular 
moment. Could you just clarify that?
    Governor Rendell. I think, and Governor Kempthorne 
mentioned, a pandemic. Assume there was an outbreak of some 
very significant plague that had the opportunity to travel 
across State lines in a flash, something of that unique nature; 
a terrorist attack that involved multiple States, something of 
that nature, too.
    And again, I think Congress should revisit that, consistent 
with the President's power to declare national emergencies; but 
should revisit it very carefully.
    Mr. Dent. Thank you. And my final question is, what do you 
Governors see as the Federal role--whether it is the Guard or 
some other aspect of the Federal Government--in implementing 
the State's evacuation plan? You know, we saw what happened in 
Texas with that mass evacuation of Houston. Of course, 
Philadelphia and New York and all of Pennsylvania would be 
impacted by either evacuation. What are your thoughts on that?
    Governor Rendell. Let me take that first, and very quickly. 
I think that it should be an advisory role. And we do lean on 
FEMA, we do lean on DHS, the Department of Homeland Security, 
for their advice. They have come in and done table-top 
exercises with us. But I think the evacuation plans should be a 
peculiarly State function. But DHS and FEMA should be available 
to give us all of the best advice and all of the cumulative 
experience from around the country.
    Governor Kempthorne. Congressman, I would just add that, in 
addition to that, as a preliminary, but in the actual event of 
an evacuation, we may need equipment, personnel to transport 
people. So it should be to augment what the State is 
implementing, in full partnership.
    Mr. Dent. OK, and just real quick and finally, in the event 
of a natural or manmade disaster, who would you see as the lead 
Federal department, DHS or DOD? And do you see enough 
coordination between those two Federal departments, with 
respect to how they assist States, particularly in light of 
Katrina? Any thoughts?
    Governor Rendell. I would think that, in terms of a natural 
disaster as opposed to a terrorist attack, a natural disaster, 
I would still like to see FEMA take the lead. And I am talking 
about FEMA from prior days. I think that FEMA was well equipped 
to lead in that effort.
    And again, remember, PEMA--and of course, Congressman, you 
are familiar with PEMA--PEMA has contact with FEMA almost on a 
weekly basis. And they are the ones best positioned, I think, 
to move in. I would like to see the role of FEMA totally 
reexamined by the Federal Government and by the Congress.
    Mr. Dent. Thank you.
    Governor Kempthorne. Congressman, I believe, if it is a 
natural disaster, it would be the Department of Homeland 
Security. I will add, however, we in years past have had such 
significant forest fires that we have asked from the Department 
of Defense, and received, active battalions that have come and 
helped us on the front line of firefighting. That would also be 
true if it were earthquakes or floods. So I wouldn't want to 
rule out that one.
    Governor Rendell. Nor would I, but the coordination of it 
should be done by FEMA. I think we need to revitalize FEMA.
    Mr. Dent. No further questions, just a comment. But I know 
in our State we have had some difficulty with the homeland 
security operations center and the way it communicates with our 
State homeland security department. I know it is a problem in 
Pennsylvania. Is that a problem in Idaho?
    Governor Kempthorne. No, sir.
    Mr. Dent. OK.
    Chairman Tom Davis. Can I just say, thank you, both. You 
have been very generous with your time. It has been very 
helpful in establishing a record here. We again appreciate the 
accomplishments and the trials and tribulations of being a 
Governor, but you both honor us with your presence today.
    We are going to recess, as we are in a series of votes 
right now, and come back in about a half an hour.
    Governor Kempthorne. And Mr. Chairman, may I just thank you 
for conducting this. This is critically important. And talking 
about demobilization, Dr. Chu and the others at the Pentagon 
are helping us. They are doing a great job.
    Chairman Tom Davis. Governor, thank you.
    [Recess.]
    Chairman Tom Davis. Good afternoon. And I want to thank the 
witnesses for their patience. I think the Members will be 
trickling in.
    We now move to our second panel. And we are extremely lucky 
to have with us today an outstanding group of experts on the 
National Guard--not only those who create and debate policies, 
but those who walk the walk to serve their charges and their 
country--with us today.
    David Walker, the Comptroller General of the United States; 
accompanied by Janet Saint Laurent, the Director of Defense 
Capabilities and Management of the GAO; the Honorable Thomas 
Hall, the Assistant Secretary of Defense for Reserve Affairs; 
Lieutenant General David Melcher, the Deputy Chief of Staff of 
the U.S. Army; Lieutenant General H Steven Blum, the Chief of 
the National Guard Bureau; Major General Allen Tackett, the 
State Adjutant General of West Virginia; and Major General 
Raymond Rees, the State Adjutant General of Oregon.
    I want to thank all of you for being here today. I remember 
in my early days in the Guard, the closest I used to get to the 
officers' club was when we cut the grass there, you know, on 
Saturday afternoons. So we appreciate everybody being here.
    Also, Mr. Walker, let me just say, the committee is just 
very grateful for the outstanding work of Ms. Saint Laurent and 
her team on the report that you have issued today.
    It is our policy that we swear all witnesses, so if you 
would, rise for me and raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. All right. Thank you. The entire GAO 
report is in the record. General Walker, and for the rest of 
you, try to stay in the 5-minute timeframe. If you feel you 
have to go over to make your point, that is fine. But your 
entire statements are in the record. Thank you.

 STATEMENTS OF DAVID WALKER, COMPTROLLER GENERAL OF THE UNITED 
STATES, GOVERNMENT ACCOUNTABILITY OFFICE, ACCOMPANIED BY JANET 
    A. ST. LAURENT, DIRECTOR, CAPABILITIES AND MANAGEMENT, 
  GOVERNMENT ACCOUNTABILITY OFFICE; THOMAS F. HALL, ASSISTANT 
   SECRETARY OF DEFENSE, RESERVE AFFAIRS, U.S. DEPARTMENT OF 
 DEFENSE; LIEUTENANT GENERAL DAVID F. MELCHER, DEPUTY CHIEF OF 
  STAFF, U.S. ARMY; LIEUTENANT GENERAL H STEVEN BLUM, CHIEF, 
   NATIONAL GUARD BUREAU; MAJOR GENERAL ALLEN TACKETT, STATE 
  ADJUTANT GENERAL, STATE OF WEST VIRGINIA; AND MAJOR GENERAL 
     RAYMOND REES, STATE ADJUTANT GENERAL, STATE OF OREGON

                   STATEMENT OF DAVID WALKER

    Mr. Walker. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here today to discuss the critical role of 
the National Guard, both at home and abroad. As you know, 
recent and ongoing military operations in Afghanistan and Iraq, 
and new homeland missions, including the response to Hurricane 
Katrina, have led to higher demands on the Reserve component; 
in particular, the Army National Guard.
    Before I address a couple of other issues, I want to 
mention that I had the pleasure and privilege this last 
Saturday evening to attend the Secretary of Defense's annual 
Freedom Awards banquet, which is sponsored by the National 
Committee of Employer Support for the Guard and Reserve.
    At this banquet, it became very clear to me that the 
Federal Government, which is the largest employer in the United 
States, is not leading by example, nor practicing what it 
preaches, with regard to support for the Guard and Reserve.
    For example, GAO and other Federal employers would like to 
have the opportunity to make up any pay gap that any of our 
activated Guard and Reserve members might experience, but we 
are precluded from doing so under current law. And candidly, we 
would like this committee's and the Congress' help to be able 
to give us the authority to do so, under appropriate facts and 
circumstances.
    With regard to the other issues that you have asked me to 
address today, as you know, we issued our 21st Century 
Challenges report, which demonstrated that a vast majority of 
the Federal Government's policies, programs, functions, and 
activities are based upon conditions that existed in the 1950's 
and 1960's; and that we face large and growing structural 
budget deficits that we are going to have to deal with.
    In that regard, with regard to the National Guard, we 
believe that Congress and the DOD need to reexamine the current 
business model for the Guard, since it appears to be 
unsustainable in light of recent changes in the security 
environment, growing recruitment challenges, and DOD's 
significant use of Reserve units.
    GAO believes that policymakers should be focusing on 
identifying an appropriate business model for the National 
Guard that balances the Guard's multiple roles with the 
appropriate human capital policies, readiness standards, and 
equipment practices.
    The overall readiness of the non-deployed Army National 
Guard units is declining, because the Guard has transferred 
large amounts of personnel and equipment from non-deployed 
units to fully staffed and equipped units deploying to Iraq and 
Afghanistan.
    However, DOD's increased use of the Army National Guard has 
not been matched with a change in its equipping or funding 
strategy. Increasing equipment shortages among non-deployed 
Army National Guard units illustrate the need for DOD to 
reexamine its equipment strategy for the Army National Guard in 
order to better match operational requirements with the Guard's 
equipment inventory.
    The amount of essential equipment that non-deployed 
National Guard units have on hand has continued to decrease 
since we last reported in 2004. For example, DOD has required 
Army units to leave more than 64,000 equipment items, valued at 
over $1.2 billion, in Iraq, for use by follow-on forces. 
However, the Army has not developed replacement plans for this 
equipment, as required by DOD policy.
    The Army is in the process of developing a plan, by 
November 2005, to replace some of that equipment. However, we 
are recommending that the Army develop a comprehensive 
replacement plan covering all equipment that the Guard units 
have left in Iraq.
    In addition, the overall decline in equipment levels among 
non-deployed units may have made it more difficult to locate 
and transport some equipment needed for Katrina; such as 
communication equipment. We are conducting a review of the 
Federal response in Katrina, including the Guard's involvement. 
And as you know, Mr. Chairman, we will be reporting more 
information on this within the next several months.
    DOD and the Army have some initiatives underway to improve 
the Guard's organization and readiness for these missions. 
However, it is too early to determine whether the Army's 
initiatives together comprise a sustainable equipping and 
funding model for the Army National Guard in the future, 
because implementation plans are not complete and funding 
requirements have not been fully identified.
    The Department of Defense also produced a strategy for 
homeland defense and civil support in 2005, June 2005, that 
describes the National Guard's key role in these areas. 
However, the DOD has not yet developed an implementation plan 
that outlines how Guard units should be trained and equipped to 
carry them out.
    Until these initiatives are more fully developed and key 
implementation decisions are made, DOD and the Congress will 
not be in a sound position to weigh their affordability and 
effectiveness, and the Army National Guard will be challenged 
to train and prepare and adequately equip for all of its 
missions.
    In conclusion, the Army National Guard's equipment problems 
and personnel and recruiting challenges are symptoms of a much 
larger problem of an outdated business model. While current 
strategies have met DOD's immediate needs to support overseas 
operations, these strategies are not sustainable over the long 
term.
    Moreover, it is not clear that DOD's initiatives, as 
currently defined, will result in a comprehensive and 
integrated strategy for preparing the Army National Guard for 
future missions.
    We therefore are recommending that the Army better 
integrate its initiatives and conduct a broader rethinking of 
the basis for Army National Guard equipment requirements that 
considers both overseas as well as homeland security 
requirements.
    In this regard, we believe that the Congress and senior DOD 
leadership must be ready to play a key role in pressing the 
Army to provide more detailed plans for these initiatives and 
to identify the specific funding required to implement them in 
the most efficient manner.
    And needless to say, Mr. Chairman, the Congress will have a 
critically important role to play, to make sure that we 
allocate limited resources to achieve the best value and 
mitigate the most risk. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Walker follows:]
    [GRAPHIC] [TIFF OMITTED] T4714.029
    
    [GRAPHIC] [TIFF OMITTED] T4714.030
    
    [GRAPHIC] [TIFF OMITTED] T4714.031
    
    [GRAPHIC] [TIFF OMITTED] T4714.032
    
    [GRAPHIC] [TIFF OMITTED] T4714.033
    
    [GRAPHIC] [TIFF OMITTED] T4714.034
    
    [GRAPHIC] [TIFF OMITTED] T4714.035
    
    [GRAPHIC] [TIFF OMITTED] T4714.036
    
    [GRAPHIC] [TIFF OMITTED] T4714.037
    
    [GRAPHIC] [TIFF OMITTED] T4714.038
    
    [GRAPHIC] [TIFF OMITTED] T4714.039
    
    [GRAPHIC] [TIFF OMITTED] T4714.040
    
    [GRAPHIC] [TIFF OMITTED] T4714.041
    
    [GRAPHIC] [TIFF OMITTED] T4714.042
    
    [GRAPHIC] [TIFF OMITTED] T4714.043
    
    [GRAPHIC] [TIFF OMITTED] T4714.044
    
    [GRAPHIC] [TIFF OMITTED] T4714.045
    
    [GRAPHIC] [TIFF OMITTED] T4714.046
    
    [GRAPHIC] [TIFF OMITTED] T4714.047
    
    [GRAPHIC] [TIFF OMITTED] T4714.048
    
    [GRAPHIC] [TIFF OMITTED] T4714.049
    
    [GRAPHIC] [TIFF OMITTED] T4714.050
    
    [GRAPHIC] [TIFF OMITTED] T4714.051
    
    [GRAPHIC] [TIFF OMITTED] T4714.052
    
    [GRAPHIC] [TIFF OMITTED] T4714.053
    
    [GRAPHIC] [TIFF OMITTED] T4714.054
    
    [GRAPHIC] [TIFF OMITTED] T4714.055
    
    Chairman Tom Davis. Thank you very much.
    Secretary Hall.

                  STATEMENT OF THOMAS F. HALL

    Mr. Hall. Mr. Chairman, you will be happy to know that Mr. 
Walker just told me that we have outsourced all the grass 
cutting now. If you were still in, you wouldn't have to cut the 
grass around the club.
    I deeply appreciate your support, and that of the 
committee, for the National Guard and Reserve forces. And on 
behalf of those men and women, I want to thank you for caring 
about them. They and their families certainly appreciate it. 
And my job, as Assistant Secretary of Defense for Reserve 
Affairs, is the overall supervision of all reserve components 
in the Department of Defense.
    In that capacity, I make it a priority to visit with our 
reserve component members in the field. And during those 
visits, I see America's finest young men and women serving 
their Nation with pride and professionalism. They are 
performing in a superb fashion at home and around the world, 
and are closely interlocked with the States, cities, towns, and 
communities in America.
    As you already know, there is increased stress on the 
force, and we are continuing to closely monitor the impact of 
that stress on our Guard and Reserve members, on their 
families, and their employers.
    Since September 11, 2001, our Guard and Reserve have 
performed superbly in missions ranging from humanitarian 
assistance to high-intensity combat operations and State 
disaster assistance missions such as Hurricanes Katrina and 
Rita--and we are preparing for Wilma.
    These operations have presented a number of challenges; 
particularly for our ground forces, which carry the larger 
burden of our security and stabilization efforts in Iraq and 
Afghanistan. Currently, the deployment burden is not shared 
equally among all the reserve components. It is concentrated on 
those specific capabilities and skills required for 
stabilization and security operations in Iraq and Afghanistan.
    There are still high demands in theater for military 
police, civil affairs, military intelligence, and motor 
transport capabilities. Since certain of these skills reside 
predominantly in our reserve components, we have called upon 
many of our citizen soldiers to serve, and they have done so 
admirably.
    Recognizing that the global war on terrorism will last for 
many years, the Department established a strategic approach to 
ensure the judicious and prudent use of Guard and reserve 
components in support of war efforts. Innovative changes to 
equipping policies and budgets have been made, and will 
continue.
    This has involved evaluations of what equipment is 
currently on hand, and how to balance these requirements with 
the legacy equipment, modern equipment, and the available 
budget. In the short term, the Army resolved equipment 
shortages with cross-leveling of equipment among mobilized 
units, or having units fall in on stand-behind equipment. These 
actions have impacted equipment availability, training, 
reconstitution, and resetting of the return units' equipment, 
as well as affecting the available equipment inventory.
    My staff remains engaged with the services, supporting 
their efforts to develop new approaches to mitigate the very 
complex equipping challenges.
    I want to just close in saying that we must guard against 
over-use of our reserve components, through judicious and 
prudent use. We must encourage volunteerism. We must manage 
expectations through predictability and timeliness. We must 
continue to address family concerns. And finally, we must 
continue to encourage our employers at every turn.
    A mission-ready National Guard and Reserve is a critical 
element of our national security strategy. The requirement for 
our reserve components has not and will not lessen. Our reserve 
components will continue with their expanded roles in all 
facets of the total force.
    We cannot lose sight of the need to balance their 
commitment to country with their commitment to family and 
civilian employers.
    The idea of operational reserve components is now a fact. 
That is why relieving the stress on the force is absolutely 
essential, rebalancing is so crucial, and ensuring that 
utilization not turn to over-utilization.
    Thank you for this opportunity to testify, and I look 
forward to your questions.
    [The prepared statement of Mr. Hall follows:]
    [GRAPHIC] [TIFF OMITTED] T4714.056
    
    [GRAPHIC] [TIFF OMITTED] T4714.057
    
    [GRAPHIC] [TIFF OMITTED] T4714.058
    
    [GRAPHIC] [TIFF OMITTED] T4714.059
    
    [GRAPHIC] [TIFF OMITTED] T4714.060
    
    [GRAPHIC] [TIFF OMITTED] T4714.061
    
    [GRAPHIC] [TIFF OMITTED] T4714.062
    
    [GRAPHIC] [TIFF OMITTED] T4714.063
    
    [GRAPHIC] [TIFF OMITTED] T4714.064
    
    [GRAPHIC] [TIFF OMITTED] T4714.065
    
    [GRAPHIC] [TIFF OMITTED] T4714.066
    
    [GRAPHIC] [TIFF OMITTED] T4714.067
    
    [GRAPHIC] [TIFF OMITTED] T4714.068
    
    [GRAPHIC] [TIFF OMITTED] T4714.069
    
    [GRAPHIC] [TIFF OMITTED] T4714.070
    
    [GRAPHIC] [TIFF OMITTED] T4714.071
    
    [GRAPHIC] [TIFF OMITTED] T4714.072
    
    [GRAPHIC] [TIFF OMITTED] T4714.073
    
    [GRAPHIC] [TIFF OMITTED] T4714.074
    
    [GRAPHIC] [TIFF OMITTED] T4714.075
    
    [GRAPHIC] [TIFF OMITTED] T4714.076
    
    [GRAPHIC] [TIFF OMITTED] T4714.077
    
    [GRAPHIC] [TIFF OMITTED] T4714.078
    
    [GRAPHIC] [TIFF OMITTED] T4714.079
    
    [GRAPHIC] [TIFF OMITTED] T4714.080
    
    [GRAPHIC] [TIFF OMITTED] T4714.081
    
    [GRAPHIC] [TIFF OMITTED] T4714.082
    
    Chairman Tom Davis. Thank you very much.
    General Melcher, welcome.

        STATEMENT OF LIEUTENANT GENERAL DAVID F. MELCHER

    General Melcher. Chairman Davis, members of the committee, 
thank you for the opportunity to appear before you today. I am 
privileged to be here with the committee and this esteemed 
panel.
    We on the Army staff share with this committee and all 
represented here a common goal to see that our dedicated Army 
National Guard and U.S. Army Reserve soldiers have the right 
equipment for the missions we have asked them to perform for 
the Nation.
    As the Army's Deputy Chief of Staff for Programs, G-8, I am 
responsible to the Army Chief of Staff and Secretary of the 
Army for materiel integration and resourcing. This includes the 
fielding of equipment according to our national strategy and 
departmental priorities to Army units within all components of 
our service--active, Reserve, and National Guard.
    I work closely with the Director, Army National Guard, and 
the Chief, Army Reserve, to ensure that our reserve component 
soldiers are equipped and resourced properly, according to 
their mission. This includes everything from major weapons 
platforms to the soldiers' individual equipment.
    Mr. Chairman, I appreciate your acknowledgement of our 
written statements and entering them into the record.
    Our overall equipping posture is showing great progress, 
thanks to the steadfast support the Army has enjoyed from 
Congress and the Department of Defense. However, we acknowledge 
that significant challenges remain, as reflected in reports 
from the Government Accountability Office; particularly with 
respect to equipping the Army National Guard while at war. I am 
confident, though, that by working together, we will overcome 
the difficulties noted.
    These equipping challenges are exactly the reason why the 
Army is transforming to a modular force, and why we are moving 
to a force rotation model called the ``Army Force Generation 
Model,'' or ARFORGEN. The modular force initiative and the 
ARFORGEN model fully integrate the Army National Guard, 
Reserve, and active Army. We are moving from a cold war 
approach, in which the Army National Guard was the strategic 
reserve, to a modular force construct that counts on the Guard 
and Reserve as operational assets.
    That means we also look at the Army National Guard and the 
Army Reserve as full partners in the requirements, resourcing, 
and fielding processes. The Army plans to invest approximately 
$21 billion on equipping and modernizing the Army National 
Guard during fiscal years 2005 through 2011. This compares to 
only $5.6 billion just 2 short years ago. This investment will 
provide the Army National Guard with equipment essential to 
both its wartime and homeland defense missions.
    We are also conducting a comprehensive review with the Army 
National Guard to determine what items of equipment needed for 
major combat operations also have the greatest use for homeland 
defense missions. Thus far, the list has been refined to 342 
items, such as communications equipment, including radios that 
can communicate with both military and civilian first 
responders; transportation equipment, including cargo, fuel, 
and water dispensing trucks; engineering equipment, including 
the tractors and trailers for transporting this equipment; 
chemical, biological, and radiological detection, 
contamination, and protection equipment; aviation equipment, 
including support equipment essential to keep the aircraft 
flying; medical equipment, including dental, medical, and 
veterinary functions; and logistics equipment, including cranes 
and forklifts, mobile containerized kitchens, and so forth.
    In collaboration with the National Guard Bureau, we have 
determined the times and quantities of equipment we need to 
provide the Army National Guard so it can perform its missions 
for both homeland defense and wartime.
    The Army has done a great deal to close the equipment gap 
for all three components, but we must continue to focus in the 
areas of tactical wheeled vehicles, aircraft, night vision 
devices, and force protection equipment, as we build this next 
program for the period 2008 to 2013.
    As we build the program, we are committed to working very 
closely with the National Guard Bureau and the Army National 
Guard, to ensure they are appropriately funded and equipped.
    On behalf of our outstanding soldiers and civilian 
employees who are serving around the world, I thank you for 
your support. Many in this committee, including yourself, sir, 
have traveled to Afghanistan or Iraq and seen firsthand our 
soldiers sacrifice for the Nation. Nothing we do is more urgent 
or pressing than ensuring that they have the best equipment.
    I look forward to answering the committee's questions 
today. Thank you.
    [The prepared statement of General Melcher follows:]
    [GRAPHIC] [TIFF OMITTED] T4714.083
    
    [GRAPHIC] [TIFF OMITTED] T4714.084
    
    [GRAPHIC] [TIFF OMITTED] T4714.085
    
    [GRAPHIC] [TIFF OMITTED] T4714.086
    
    [GRAPHIC] [TIFF OMITTED] T4714.087
    
    [GRAPHIC] [TIFF OMITTED] T4714.088
    
    [GRAPHIC] [TIFF OMITTED] T4714.089
    
    [GRAPHIC] [TIFF OMITTED] T4714.090
    
    [GRAPHIC] [TIFF OMITTED] T4714.091
    
    [GRAPHIC] [TIFF OMITTED] T4714.092
    
    [GRAPHIC] [TIFF OMITTED] T4714.093
    
    [GRAPHIC] [TIFF OMITTED] T4714.094
    
    [GRAPHIC] [TIFF OMITTED] T4714.095
    
    Chairman Tom Davis. Thank you very much.
    General Blum, welcome.

         STATEMENT OF LIEUTENENT GENERAL H STEVEN BLUM

    General Blum. Thank you. Chairman Davis, members of the 
committee, thanks for the opportunity to appear here today and 
discuss the National Guard, its role in supporting responses to 
threats to our Nation both overseas and here at home.
    As General Melcher has adequately stated, I totally concur 
with everything that he has brought before this committee. That 
is a first, probably. It shows that the U.S. Army is in fact 
committed, and that we are standing as one army, all three 
components--active, Guard, and Reserve--in resolving and 
accepting the responsibility for equipping the National Guard. 
That is the first time that has happened in the history of this 
Nation.
    Today, we are faced with issues that have resulted from a 
deliberate and, arguably, appropriate cold war draft era 
strategy that accepted large risk, significant risk, by 
chronically under-equipping the Army National Guard.
    The Army National Guard today is no longer a strategic 
reserve. We are an operational force. You heard from the 
Governors that appeared earlier about the fact that actually 
over half of the combat forces in Iraq of the U.S. Army are 
from the National Guard.
    So we are no longer a strategic reserve. We are an 
operational force abroad, as well as the first Department of 
Defense responders for missions here in the homeland; whether 
it is homeland defense or to support the homeland security 
operations.
    I want it on the record that our soldiers from the Army 
National Guard, for the first time in the history of this 
Nation and for the last 2 years, have not gone in harm's way--
ever in the history of this Nation have we ever sent soldiers 
into harm's way or into a combat zone without the very finest 
equipment that this Nation could offer.
    Today, I can say that for the last 24 months, because of 
the leadership of the U.S. Army, that is a reality. The senior 
leadership of the Army is committed to ensuring that is a 
reality and that the National Guard gets equipment, in some 
cases ahead of its active duty counterparts, but in no cases 
does it go without the equipment it needs for the overseas 
mission.
    Now we need to focus that same sense of commitment, that 
same sense of dedication and sense of urgency, to ensuring that 
no citizen-soldiers are called out by Governors or the 
President to perform missions here in the homeland without the 
equipment that they need to protect them and to deliver the 
capabilities that our Governors and our citizens expect; 
whether it would be ill effects delivered by a terrorist 
organization, or by Mother Nature.
    Before September 11, 2001, the Army National Guard had 75 
percent of its authorized equipment on hand. Over the last 4 
years, that equipment has been cross-leveled, sent overseas to 
ensure the soldiers overseas in harm's way had the very best 
equipment we could possibly provide. It was the right thing to 
do. Much of that equipment has been destroyed, worn out, left 
in place for others; which is rightfully the way to handle 
that.
    But the bottom line is, our inventory that started at 75 
percent 4 years ago is now at 34 percent. And when you consider 
items that are considered substitute items, that are really not 
appropriate for overseas deployment, the number is even 
smaller.
    We can no longer accept the risk that this Nation once took 
with its Army National Guard and its Air National Guard, and 
today we must take the first steps to correcting this. We did 
not get into this situation overnight; we won't get out of it 
overnight. But this journey must begin immediately.
    The fact that Army National Guard units were deployed to 
Iraq at the same time that Hurricanes Katrina and Rita, and now 
Wilma, are visiting our Nation does not mean that the National 
Guard in any way had lessened its ability to respond. It made 
it more difficult, but it did not lessen our capability. We had 
to take measures to mitigate that, and we did.
    It should be noted that the National Guard delivered 50,000 
citizen-soldiers and airmen to the Gulf region to respond to 
Hurricanes Rita and Katrina in a historically unprecedented, 
largest response to a natural disaster with national 
implications--faster, more forces, more capabilities delivered 
by every State, our territories of Guam and the Virgin Islands, 
the Commonwealth of Puerto Rico, and the District of Columbia. 
All closed on the affected areas in a period of 6\1/2\ days. 
This immediate, rapid reaction is unprecedented in military 
history of the world; not only the United States.
    More than 50,000 National Guard members responded. They 
dropped what they were doing; interrupted their lives; had no 
idea how long they were going to be there, under what 
conditions they would be there. But when the Governors called 
and the Nation called out the Guard, you called out America, 
truly, in every part of the Nation.
    Our highest equipment priorities are exactly in line with 
what you heard from the two Governors that testified earlier 
and what General Melcher just outlined. It is communications 
equipment. You cannot coordinate, synchronize, and organize a 
response without effective communications.
    That communications must be interoperable with the other 
joint and interagency responders that are there. But first and 
foremost, we must be able to talk to the Army; and then, beyond 
that, the other elements of DOD; and then ultimately, 
hopefully, the civilian first responders, the emergency 
community.
    Helicopters are essential. You heard it from both 
Governors, and probably the three that appeared yesterday. 
Tactical vehicles--modern, reliable, economical tactical 
vehicles; not the M-35 series of vehicles that are older than 
most of the people in this room.
    Heavy engineering equipment is essential in the time of an 
emergency to save lives, to remove debris, to clear lines of 
communication, to allow both civilian and military first 
responders to in fact respond.
    The chemical equipment, the medical sets, the logistical 
equipment, the night vision goggles, are exactly the items that 
are on our list.
    We estimate it will take an immediate $1.3 billion to 
address this need to improve the National Guard's ability to 
respond in our homeland when we are called out either by the 
Governors or the President.
    Thank you, sir. I look forward to your questions.
    [The prepared statement of General Blum follows:]
    [GRAPHIC] [TIFF OMITTED] T4714.096
    
    [GRAPHIC] [TIFF OMITTED] T4714.097
    
    [GRAPHIC] [TIFF OMITTED] T4714.098
    
    [GRAPHIC] [TIFF OMITTED] T4714.099
    
    [GRAPHIC] [TIFF OMITTED] T4714.100
    
    [GRAPHIC] [TIFF OMITTED] T4714.101
    
    [GRAPHIC] [TIFF OMITTED] T4714.102
    
    [GRAPHIC] [TIFF OMITTED] T4714.132
    
    [GRAPHIC] [TIFF OMITTED] T4714.103
    
    [GRAPHIC] [TIFF OMITTED] T4714.104
    
    [GRAPHIC] [TIFF OMITTED] T4714.105
    
    [GRAPHIC] [TIFF OMITTED] T4714.106
    
    Chairman Tom Davis. Thank you very much.
    General Tackett.

            STATEMENT OF MAJOR GENERAL ALLEN TACKETT

    General Tackett. Thank you, Mr. Chairman, members of the 
committee. Thank you for giving me the opportunity to testify 
today on issues that I believe are of vital importance to our 
Nation as a whole and to each of our States.
    As demonstrated recently in the response to Hurricane 
Katrina, the National Guard is vital to recovery efforts 
following natural disasters. In West Virginia, the National 
Guard has responded to 37 federally declared disasters in the 
last 10 years. The soldiers and airmen of the Army and Air 
National Guard have become expert at these types of operations.
    However, this mission, as vital as it is to the health, 
safety, and welfare of the citizens of this Nation, has never 
been resourced by the Federal Government with the equipment 
needed to conduct these missions. All equipment issued to the 
National Guard is issued on the basis of the National Guard 
unit's Federal war-fighting mission. No consideration is given 
to another, equally important, mission of the National Guard, 
disaster relief.
    As an example, our 1092d Engineer Battalion was mobilized 
and deployed in support of Operation Iraqi Freedom. When the 
unit returned, its engineer equipment remained in theater for 
use by incoming units. When the battalion was called to State 
active duty by the Governor for flood duty shortly after its 
demobilization, it had no equipment, no end-loaders, no dump 
trucks, to assist with recovery efforts. We were forced to rent 
Bobcats and go to the EMAC to assist the citizens of our State 
to recover from flooding.
    I believe that this situation must be addressed before the 
next hurricane, earthquake, tsunami, finds us ill equipped to 
respond to a threat as potentially deadly as any enemy attack.
    The military has long recognized that preparation for 
combat in a realistic environment leads to fewer casualties on 
the battlefield. At the National Training Center at Fort Irwin, 
CA, and the Joint Readiness Training Center at Fort Polk, LA, 
units fight realistic mock battles to prepare them for combat. 
The result can be seen in our decisive victories in Desert 
Storm and Iraqi Freedom. In contrast, Katrina illustrates what 
a lack of collective training can lead to.
    Compare this with the situation when the Ohio River flooded 
parts of Ohio and West Virginia earlier this year. National 
Guard units were able to work with State and county emergency 
services directors, the Red Cross, and Noah's Wish, to help the 
citizens of both States in the flooded areas recover in a 
timely, effective manner.
    The lessons of Katrina and Rita demonstrate a clear need 
for a joint interagency training capability the new Joint 
Interagency Training Center, established by the Chief of the 
National Guard Bureau, can provide.
    We must focus not only on consequence management and 
emergency response, but, just as importantly, on the preventive 
and deterrence. The Joint Interagency Training Center operated 
by the West Virginia National Guard focuses on key aspects of 
information and intelligence sharing; chemical, biological, 
radiological, nuclear enhanced collective training exercises 
focused on interagency and intergovernmental response; critical 
infrastructure protection and mission assurance; and in the 
future, non-lethal weapons.
    All of these are key elements of homeland defense and 
homeland security; whether it is preventing or mitigating a 
terrorist attack, or effectively responding to a catastrophic 
natural disaster.
    Just as we use the Joint Readiness Training Center and the 
National Training Center to be the most effective fighting 
force in the conventional warfare, we need to use the Joint 
Inter-agency Training Center concept to be the most effective 
force in the new realm of homeland defense, homeland security, 
and emergency preparedness.
    In the new threat environment, this is just as vital a 
mission as any other war-fighting mission we have for the 
``away game.'' It is clearly a mission for the National Guard, 
but it must be effectively resourced and supported, and not at 
the expense of reducing the Guard's resources and participation 
in other war-fighting missions.
    The Chief of the National Guard Bureau, in conjunction with 
the adjutants general, has already laid the groundwork for such 
efforts with initiatives such as the Joint Inter-agency 
Training Center; Chemical, Biological, Radiological and Nuclear 
or High-Yield Explosive Response Force Package; the CERFP; 
Civil Support Teams; Full Spectrum Integrated Vulnerability 
Assessment Teams; and a Rapid Reaction Force.
    An example of this is the methodology the Joint Inter-
agency Training Center-East is developing on behalf of the 
National Guard Bureau for assessing critical infrastructure and 
mission assurance. Working jointly with the Secretary of 
Homeland Defense, the Defense Contract Management Agency, and 
NORTHCOM, we are looking at an ``all hazards'' approach for 
making these assessments; thus allowing for the identification, 
mitigation, and response planning for not only terrorist 
threats, but also natural threats.
    Each of the States has, or soon will have, a civil support 
team on duty as a part of its National Guard force structure. 
The purpose of the civil support team is to respond to 
chemical, biological, or nuclear attacks, and to determine what 
agents have been used, and to work with civilian first 
responders in consequence management.
    I propose an expansion of the civil support mission to 
include natural disaster response. Civil support teams are 
already trained in first aid and casualty evacuation. This type 
of approach would have dedicated forces in place, ready to 
respond quickly when needed.
    The major criticism of the relief efforts after Katrina was 
the perceived length of time it took to get troops on the 
ground. The States and counties are responsible for providing 
first responders. FEMA does not have a first responder mission; 
nor does any other Federal agency. A dedicated force of 
National Guard first responders would reduce the time, from the 
call for help, to having boots on the ground.
    In addition, in 1989, Congress had the foresight to 
establish the National Guard Counterdrug Program. It provided 
additional force structure for Guard soldiers to work in an 
interagency approach to fighting the war on drugs.
    It uses a ``State plans'' approach that tailors efforts to 
the specific threats of each State and also allows for States 
to develop multiple State initiatives. This program has been a 
model for interagency and intergovernmental support for over 15 
years. It could be rapidly expanded at a minimal cost to the 
broader homeland defense, homeland security, and emergency 
preparedness missions.
    In fact, many of its assets have already been used in key 
events, such as the response to Katrina and Rita, as well as 
the national political conventions, the G8 summit, and the 
Presidential Inauguration.
    The model is there. It just needs the authorization for the 
expanded role and full funding of its current 4,000-troop 
authorization. It could become the core of a dedicated force 
for both the narco-terrorism and the homeland defense, homeland 
security, and emergency preparedness missions that are then 
augmented by traditional Guard, Reserve, and active component 
units, depending on the scope of an event. If properly 
structured and resourced, these units could also provide assets 
for key OCONUS response in training allies for homeland 
defense, as well as humanitarian and nation-building missions.
    In my view, funding for disaster recovery operations 
conducted by the National Guard should come directly from the 
Federal Government. Statutory authority to fund homeland 
security missions is now in place, with the recently enacted 
Chapter 9 of Title 32, U.S. Code. This statute allows the 
Secretary of Defense to fund homeland security missions at the 
request of a Governor for 180 days. An amendment to this 
statute to provide similar authority to fund disaster relief 
efforts is badly needed.
    There has been some discussion of adding a disaster 
response mission to our active forces. I believe that this 
would be a mistake. Our active component forces are the finest 
in the world. One of the reasons they are so good is their 
focus solely on preparedness for war. Adding another mission 
would detract from the single-minded focus required of the 
forces whose primary mission has always been, and should 
remain, fighting our Nation's wars.
    In addition, the current OPTEMPO makes adding another 
mission to our active forces unwise, if not impossible. The 
primary mission military responsibility for natural disaster 
relief should rest with the National Guard.
    As a member of both the National Guard Domestic Operations 
Advisory Board, and the Adjutants General Association of the 
U.S. Homeland Security Committee, I can tell you that the 
National Guard Bureau and the Adjutants General stand ready to 
work with Congress, the President, and the Department of 
Defense, to quickly and effectively address this vital need.
    With the threats we face in the 21st century, this mission 
is too vital to the safety and security of our Nation not to 
address immediately. And the Guard, in its role as the militia, 
is clearly the core force for the mission.
    Thank you, Mr. Chairman, and I look forward to your 
questions.
    [The prepared statement of General Tackett follows:]
    [GRAPHIC] [TIFF OMITTED] T4714.107
    
    [GRAPHIC] [TIFF OMITTED] T4714.108
    
    [GRAPHIC] [TIFF OMITTED] T4714.109
    
    [GRAPHIC] [TIFF OMITTED] T4714.110
    
    Chairman Tom Davis. Thank you very much.
    General Rees.

            STATEMENT OF MAJOR GENERAL RAYMOND REES

    General Rees. Mr. Chairman, I am Major General Raymond Fred 
Rees, the Adjutant General of Oregon. I thank you and the 
committee for inviting me to testify here. I provided my 
written comments for the record.
    I would like to focus first on equipment. I had the 
opportunity, at the direction of my Governor, to go out and 
survey the Oregon National Guard in the May and June timeframe, 
before I assumed office on July 1st. The No. 1 issue among 
soldiers was not, ``When will I deploy again?'' It was, ``Where 
is my equipment?''
    This affects readiness, obviously, directly; but 
indirectly, the attitude of soldiers toward their 
organizations, where most of our National Guardsmen are 
veterans. We have more veterans in the Oregon National Guard 
now than we have had since World War II, and they have deployed 
with the very best equipment. They now see they have nothing, 
or ``in lieu of'' equipment, and it is demoralizing. And they, 
I believe, will not put up with it for long and, unfortunately, 
may vote with their feet, as far as staying in our 
organization.
    Likewise, potential recruits are expecting to be part of a 
21st century organization, and they see very little evidence of 
it.
    I strongly endorse the efforts by the National Guard 
Bureau, the Army, and the Government Accountability Office, to 
highlight the equipment shortage and the need for the emergency 
supplemental equipment appropriation.
    In the area of disaster response, Oregon is one of many 
States. I believe, 50 to 54 entities out there responded to the 
call of the Governors of Louisiana and Mississippi. We had 
2,000 individuals who were called, both Army and Air Guard. 
Basically, from a cold start, our advance party was on the 
ground within 48 hours. The main body was there within another 
48 hours after that. And this is all over a holiday weekend. 
The limiting factor on this was airlift.
    How did we meet these standards? How did we get there in 
that timeframe? I think a lot of it has to do with the fact 
that the 4-years of mobilizations has improved our processes, 
refined and honed our skills at calling and moving troops--
certainly, a byproduct of the military training and the Federal 
overseas mission.
    How did we do it? Three things. First of all, the 
authorities under the Emergency Management Assistance Compact 
[EMAC], were there and in place and could be used. No. 2, the 
National Guard Bureau coordination was phenomenal, as directed 
by General Blum. And three, the national treasure that I call 
the Air National Guard was available to provide us with 
airlift. I can tell you, even though I have two fighter bases 
in Oregon, having those two air bases was absolutely essential 
to be able to move those troops rapidly to New Orleans and to 
Bell Chase Naval Air Station.
    What needs to be improved? General Tackett has already 
talked about training. I endorse what he said about training 
requirements. Exercises: we need to think big in terms of how 
these exercises should be done. How do we stabilize and 
preserve State and local government, and not attempt to 
supplant it? We need to think big, start small-scale fast, in 
these exercises.
    The equipment, we have already talked about. And the 
business of Title 32, want to thank this committee for what it 
did last year to spur on revisions to Title 32. But I can tell 
you that, from what I have seen, we need more work on this. The 
ideas that General Tackett has just endorsed--or I endorse what 
Major General Tackett has just talked about. But I see a 
resistance still in the operational use of the National Guard 
in Title 32.
    In the area of EMAC, this needs to be improved, also, 
because there needs to be clarification there. I think Governor 
Kempthorne talked to that. Certainly, there is a need for 
provisions in there to talk about support to law enforcement.
    Standardization needs to be worked on. We need to talk 
about the expansion, perhaps, of the CERFP concept that the 
National Guard Bureau has advocated. And I would look at 
certain other areas in there, such as aviation, for composite 
organizations that could help in faster response.
    Finally, I would say in the area of requirements in funding 
that certainly in the business of homeland defense the 
tightknit relationship between the Bureau and the Army has 
worked very well in defining requirements in funding, but when 
it comes to the business of homeland security I think we need 
to look, and I would recommend a study directed by this 
committee to look at three areas.
    One, is the current DOD process for getting to homeland 
security activities adequate? That is where the Guard is looked 
at as a reserve of the Army and the Air Force. Or, No. 2, 
should NORTHCOM have authorities such as the Special Operations 
Command has, where they can do requirements and funding 
specifically aimed at homeland security?
    Or, third, should we look at what I would call a reverse 
Coast Guard model, where there is a direct relationship between 
the Bureau and DOD and DHS, so that the National Guard can 
respond appropriately to the requirements of the Department of 
Homeland Security?
    That concludes my remarks, and I look forward to your 
questions. Thank you.
    [The prepared statement of General Rees follows:]
    [GRAPHIC] [TIFF OMITTED] T4714.111
    
    [GRAPHIC] [TIFF OMITTED] T4714.112
    
    [GRAPHIC] [TIFF OMITTED] T4714.113
    
    [GRAPHIC] [TIFF OMITTED] T4714.114
    
    [GRAPHIC] [TIFF OMITTED] T4714.115
    
    [GRAPHIC] [TIFF OMITTED] T4714.116
    
    [GRAPHIC] [TIFF OMITTED] T4714.117
    
    [GRAPHIC] [TIFF OMITTED] T4714.118
    
    [GRAPHIC] [TIFF OMITTED] T4714.119
    
    [GRAPHIC] [TIFF OMITTED] T4714.120
    
    Chairman Tom Davis. Thank you very much. General Melcher, I 
will start with you. You are kind of the point-guy here. It 
seems to me that the Army is forgetting what is important in 
transformation and reform. That is, how does it affect the 
individual Guard soldier?
    First, we had the pay problems. They weren't getting paid 
correctly, and I think we reported on that widely. Then we 
subjected them to the administrative nightmares in medical 
holds, and this committee did a hearing on that. Some very 
tragic cases of people that were caught in some ``catch-22s'' 
in terms of getting medical attention.
    Then, just the recent revelations that we were sending some 
of our Guardsmen to debt collection agencies for pay errors 
that they didn't make, that we made; ruining their credit in 
some cases.
    And today, from the GAO, who calls the balls and strikes in 
these issues for Congress, it appears that the Army is saying 
it is OK that the Army Guard soldiers don't have adequate 
equipment to train; nor can they expect it any time soon, under 
modularity or the non-issuance of homeland requirements.
    What is the problem here? Why is the Army treating the 
Guard as second-class? Given the Guard's operational role in 
the global war on terrorism, why are Guard units still equipped 
at less than wartime readiness levels?
    In fact, if the active duty are equipped at C-1 readiness, 
why not the equally operational Guard? I mean, is this just a 
question of limited resources and having to set priorities?
    General Melcher. Sir, let me start by recapping just one 
comment that I made in the opening statement. And that is that 
I would say, up to a period of about 2 years ago, the Army 
National Guard was considered, not only by the Army, but the 
Department of Defense, as a strategic reserve; in that the 
operating assumption was that we would have a long lead time in 
which to mobilize soldiers, in which to potentially make up 
shortfalls of equipping and perhaps even manning, in order to 
prepare those units for war.
    What happened 2 years ago is that the Army, in concert with 
this global war on terror, embarked on a journey not only to 
recognize that the Army National Guard was an integral part of 
our operational forces, but that we should also equip and man 
them commensurate with that new status.
    Where you see that being played out in this global war on 
terror is in Iraq and Afghanistan today, where 7 out of the 17 
combat brigades in theater are Army National Guard. The number 
of those brigades with each rotation varies, but the point is, 
the Guard is very much committed, as is the U.S. Army Reserve.
    And so 2 years ago, we embarked upon a plan, which we have 
called Army Modular Forces, to try and, first of all, 
standardize each one of the types of units we have in the Army, 
between the active and the Guard; and second, to fill those 
units with the kind of equipment and capabilities that they 
require for a model that says they must be ready to go.
    And we also have aligned ourselves in terms of the rotation 
scheme which I believe you are aware of, the Army Force 
Generation Model, where the assumption is active forces should 
be ready to go one out of every 3 years; Guard forces, one out 
of every 6 years.
    And so that is the reason in the equipping arena that we 
have gone from about $5 billion over the program years 
dedicated to Army Guard equipping, to a total of $21 billion 
today. And what that does is it takes each one of those Guard 
units, those combat brigades, and it fills them up with 
equipment between now and the fiscal year 2012 time period, in 
order to make them on an equal par with their active duty 
counterparts.
    If I were to characterize even active units at the 
beginning of this war, I would tell you that I think active 
units were filled anywhere between 90 and 100 percent of their 
required equipment. Not every one of those was at 100 percent. 
Guard units, as you have heard here today, were equipped at 
about the 75-percent level. At the end of this period where we 
intend to transform all units, the intent is that all units be 
equipped at the 100-percent level, and that is the direction 
that we are going.
    With respect to the other things that you mentioned, I am 
not an expert on pay, and I am not an expert necessarily on----
    Chairman Tom Davis. We have had other people up here on 
that.
    General Melcher. But I did just want to make a point that, 
in preparing for this hearing, I reviewed some of the things 
that the Army has done to try and take a harder look at our 
disabled soldiers and how they are being treated with respect 
to pay problems and so forth. And in fact, we have taken a hard 
look at how to deal with that, both for active and Guard 
soldiers alike.
    And one case in particular of trying to look out for Guard 
soldiers can be illustrated by Taskforce Care, which was an 
effort initiated because of Hurricane Katrina to establish a 
taskforce that went to theater; talked to soldiers from 
Louisiana that were about to redeploy back to their home State; 
tried to determine what was the situation for each one of those 
soldiers and their families; and, in theater and when they got 
back, make sure that we followed through to find housing for 
them, or to find the benefits that they needed and so forth.
    And so we looked at--you know, when I say ``we,'' the U.S. 
Army--looks at the Army National Guard as an equal partner in 
this war on terror that we are conducting. And they should be 
so equipped.
    Chairman Tom Davis. I mean, I think in some of these areas, 
particularly in the pay and the health areas, it was about 
systems and procedures; and we forget about the individual 
soldier. There are just too many exceptions.
    Let me ask another question. I understand that the $1.3 
billion that is included in the Senate appropriations bill for 
Guard equipment for Katrina and other homeland emergencies 
isn't included in the House appropriation bills and, because of 
spending caps, it might not get in at all.
    I also understand the Army has requested $850 million, and 
that the difference includes communications equipment and 
trucks that might be used in other disasters. Why hasn't the 
Army included these two key items in its request?
    General Melcher. Sir, in the Army's supplemental requests 
for 2006--and I am talking about the supplemental associated 
with war, and not necessarily the hurricane--the Army has 
requested dollar amounts for the kind of materiel you described 
for the Guard and for the active forces, in order to try and 
equip these units that are converting to modular configuration.
    The Congress is entertaining right now a proposal for $1.3 
billion, as you mentioned. Were the Congress to approve that 
proposal, that would go a long way, certainly, toward providing 
those capabilities quicker than we might otherwise be able to 
do with the ordinary appropriations cycle and year-by-year 
approach of how we intend to improve over time.
    Chairman Tom Davis. Well, let me ask Secretary Hall. Why 
does the Title 32 authority for Hurricane Katrina only cover 
pay allotments, and not the equipment used or the training 
required? I think we heard testimony and we understand that as 
they lose equipment, it weakens their ability to perform State-
side. Why does the Guard stand--well, the Guard, alone, has to 
come to the Hill to ask for equipment for Katrina; where every 
other DOD department or Federal agency can be assured 
reimbursement through Title 10 or through FEMA.
    Mr. Hall. I think that there is little disagreement here at 
the table and with either one of the Generals that we need to 
have within the equipping strategy for the future, within the 
$21 billion that the General mentioned, and more perhaps, 
equipment for homeland defense, for resetting the force, for 
repair of equipment, for the modularity, and for supporting the 
ARFORGEN.
    So I think within that model there is a commitment to 
provide that equipment for homeland defense that the Guard and 
the Reserve would need. So I don't think we disagree on the 
requirement. It is making sure that we maintain that funding 
flow over the next few years, to provide that equipment.
    Under Title 32, as you know, when requested by the 
Governors--the forces remain under control of the Governor--
their pay and allowances are paid for by the Federal 
Government. But again, the equipment that they will need has to 
be included in our overall equipping strategy, to get that 
equipment that they will need now and for the future for 
homeland defense.
    Chairman Tom Davis. It appears that the Army and DOD are, I 
think wisely, adopting equipment requirements for Iraqi Freedom 
and the global war on terror. But the Department isn't coming 
up with requirements for homeland military assistance.
    Mr. Hall. No, I think they are. And separately, General 
Melcher and General Blum have told me that over 300 separate 
items that will be required for homeland defense are being 
identified for the National Guard--in fact, I think 342, by 
exact number. And those will be identified for homeland defense 
requirements for the Guard.
    Those are coming to us in a report by the end of the month, 
which we will forward to you. So they are addressing those 
particular requirements, and over 300 of them are identified--
trucks, communications, heavy-duty hauling equipment.
    Chairman Tom Davis. Yes, General Blum.
    General Blum. And it might be useful, also, Mr. Chairman, 
to remind everybody that these 342 identified items are dual-
use items.
    Chairman Tom Davis. Right.
    General Blum. They are equally applicable for both overseas 
war fighting as they are for here at home.
    Chairman Tom Davis. What has hastened this is the fact that 
we are just leaving a lot of equipment over in Afghanistan or 
Iraq. That just depletes it, and we are not replenishing it. 
And a lot of that can be used--like you say, it could be used 
over there, but it could be used here, and we are missing it. 
And we heard testimony from the two Governors earlier, there is 
a huge deficit.
    General Blum. Exactly. And it is not that the Army and DOD 
are not addressing it. The issue is that the problem is so deep 
and so longstanding that the measures that they have taken--and 
some of them are quite extraordinary. I mean, within the 
supplemental and on the global war on terrorism there is $2.5 
billion identified to reset equipment for the Army National 
Guard. There is $3 billion identified by the U.S. Army in their 
submission for modularity for the National Guard. But that 
still leaves us woefully short.
    And again, we didn't get here overnight; but we are where 
we are. And we are in a different world today than we were even 
4 years ago.
    Chairman Tom Davis. That is right.
    General Blum. And we can no longer assume the risk that we 
are accepting. And I, for one, welcome any emergency or 
extraordinary measures to solve this problem sooner than later.
    Mr. Hall. Could I just add that I compliment GAO on their 
report, which we haven't mentioned, for the National Guard 
equipment. They had three major findings. I concurred with all 
of those three; sent them a letter back; asked the Army to 
provide information by the end of this month on addressing 
those three areas, so that I may prepare a report, the Army and 
DOD, to you, outlining these exact issues of what are we going 
to do about the equipment left behind; how are we going to have 
a good accounting system for that equipment; and how are we 
going to support the Army's ARFORGEN model in the future.
    Chairman Tom Davis. General Walker, we don't have any 
questions for you. The work that you have done, and your staff 
has done, and Ms. Saint Laurent has done, on this is great. 
Nobody is disputing that, so no need to give you questions. You 
have kind of defined it. You have called the balls; you have 
called the strikes. Nobody is disputing the calls. The question 
now is what we do. And so, just again, we appreciate what you 
did.
    Let me just ask General Tackett, what do you think about 
the Army modularity?
    General Tackett. From a National Guard standpoint, it is 
going to be very difficult to meet it. We are going to have a 
lot of our forces that have to be retrained. It puts a lot of 
stress onto the National Guard. But it is something that has to 
be done. We have to mirror the active duty component.
    It is taking away a lot of engineer structure from the 
States, which is very important for the State missions. It is 
going to cause the adjutant generals and Governors to use EMAC 
a lot more than what they have in the past. There are a lot of 
difficulties involved in modularity.
    Chairman Tom Davis. OK. Thank you. How is retention coming 
at this point, as people come back from the war front?
    General Tackett. Well, in the State of West Virginia, I am 
proud to say that we are one of the few States that met our in-
strength, and our actual retention rate is 147 percent of what 
it was intended to be.
    Chairman Tom Davis. I asked the right guy; didn't I, 
General Blum? I asked the right man.
    General Tackett. We are very fortunate. We are 106 percent 
of assigned strength. And we are one of only three States in 
the entire Nation that is above their assigned strength. And we 
have been very fortunate and lucky in the State of West 
Virginia.
    The State supports us big-time. You heard one of the 
Governors--from Pennsylvania, Governor Rendell--talk about the 
education assistance program. We have several programs in West 
Virginia that help us in our recruiting, and help us with our 
retention of our Guardsmen. But we have been extremely 
fortunate to meet our goals.
    General Blum. Mr. Chairman, that is a great question. And 
the answer that you got from West Virginia is only 
representative of what you would get from almost any State that 
you asked.
    It almost is counter-intuitive, but the more we are using 
the Guard, particularly for domestic operations--hurricane 
relief and humanitarian operations right here in the United 
States--it has been a spike or a boon to our recruiting in the 
last 30 days.
    It is interesting to see that, while we were the busiest, 
with 50,000 people in the Gulf and 80,000 people overseas 
fighting the war on terrorism, where we are stretched and 
probably busier than we have ever been at any time in modern 
history, our recruiting was better because of it. Because the 
young men and women of this Nation want to be part of an 
organization that is professional and is doing something that 
makes a difference.
    That is why having modern equipment in their hands when 
they show up is so important to attract them and to keep them 
in our formations. And then, when they are called to perform in 
such a magnificent way, the only way they have capabilities is 
that people training and equipment. So this equipment is a 
vital leg in the three-legged stool of our capabilities in the 
Guard.
    Chairman Tom Davis. You know, it is kind of counter-
intuitive that retention--really, recruitment--would be up in 
this environment. But if you go down to New Orleans, as I was 
there, and Mississippi, and you see these people, and you see 
them on the ground, and you see their morale--and I mean, they 
are working hard. They are working 24-7. They are not getting 
much sleep. They are certainly not living a very luxurious 
life; some of them in tents. But the morale is amazing. And you 
know, people do want to be part of something helping their 
fellow man.
    So I didn't know what answer I would get when I asked the 
question, but I am glad to hear that.
    Mr. Hall. Could I just----
    Chairman Tom Davis. Sure.
    Mr. Hall. Could I also just add, we were focusing on the 
Guard here, but from all the components which I look at, 
attrition is almost at an all-time low. And again, it is 
counter-intuitive, but we have used all the components. Look at 
the Marine Corps, who are 104 percent of all of their goals. We 
look at the other services, the retention and attrition is at 
all-time highs, and so more people are staying with us.
    We have some recruiting challenges, but not in the 
retention for our people that have served. And we have seen, in 
fact, some of our highest levels have been the people who have 
gone forward into the fight in Iraq and Afghanistan; and by the 
way, many of them taking advantage of reenlisting with the 
bonuses that you all provided. That was probably the most 
effective tool, the $15,000 bonus that you provided last year 
for our young men and women staying in-theater.
    Chairman Tom Davis. General Walker.
    Mr. Walker. Mr. Chairman, as has been said by several of 
the panel members, for decades, the Army National Guard's role 
was to be a strategic reserve. The fact is, it is no longer 
strategic, and it is no longer a reserve. It is now being used 
tactically, both overseas and domestically. And it is being 
used with recurring frequency.
    People are doing a great job. People are trying very hard 
with regard to the resources and the authorities they have. But 
the simple fact of the fundamental change in how the Guard and 
Reserve are being used has significant human capital, has 
significant equipment, has significant operational, and has 
significant fiscal implications. And we need to recognize that 
reality.
    A part of the issue is, it is not a matter of whether or 
not the Guard and Reserve need more money. They do. The 
question is, where is it going to come from? And is it a 
reallocation of existing resources, or is it an addition added 
on top? And we need to engage in that exercise, and start 
making some tough choices which haven't been made in quite a 
long time.
    Chairman Tom Davis. Thank you. Mr. Shays.
    Mr. Shays. Thank you. I would really like to segue. That is 
a wonderful segue for me. I feel like I am in a funny 
environment right now, because I feel like, as I read your 
statement, under the summary: ``The significant use of Army 
National Guard forces for overseas and homeland missions since 
September 11, 2001, has resulted in declining readiness, 
weakening the Army National Guard preparedness for future 
missions, and indicating the DOD's business model for the Army 
National Guard is unsustainable and needs to be reassessed.'' 
Other than that, things are working well, I guess.
    ``The current heavy reliance of the Army National Guard for 
overseas operations represents a fundamental change from the 
Guard's planned role as a strategic reserve force whose 
principal role was to deploy in the later stages of a major 
conflict.'' I will just read a little longer. It is needed.
    ``Under this model, which still governs how resources are 
provided to the Guard, the majority of Army National Guard 
combat forces are only provided with 65 to 74 percent of the 
people, and 65 to 79 percent of the equipment needed to conduct 
their assigned wartime missions.'' I mean, I could keep going 
on. But then you say: ``DOD is undertaking some initiatives to 
improve the Guard's equipment readiness and to balance its 
multiple roles in overseas and domestic operations. However, it 
is not clear whether these initiatives will be effective in 
enhancing the Army National Guard's equipment posture, because 
DOD has not yet developed detailed plans; nor has it included 
funding for all its initiatives in its budget.'' Do you stand 
by your statement, Mr. Walker?
    Mr. Walker. I stand by that report, and my statement.
    Mr. Shays. Have you heard anything that followed your 
statement that makes you want to qualify your statement?
    Mr. Walker. No. I think people here are trying to do the 
best they can with the resources and authorities that they 
have. Candidly, Mr. Shays, as you know, I think one of the 
problems you have is we need to engage in a much more strategic 
and integrated review and reassessment of DOD, period. This is 
a small piece, but an important piece.
    Mr. Shays. Well, it is a very important piece. But what I 
am trying to understand is, I admit to not hearing all the 
statements, but the statements I did hear didn't seem to 
address your statements. I mean, I feel like you have to look 
for the gold thread of relevance in this lots of talk.
    I would like to ask each of you how you are addressing 
specifically; and not a long terminology. And what I would like 
from DOD is just straight talk--not bullshit; straight talk. 
You know, ``It is true, we haven't done this, but this is what 
we are doing, and this is how long it is going to take, and 
this will be the result.''
    I think the head of GAO owes it. He didn't send someone 
else here. He came himself to deliver this message. And I would 
like some straight talk.
    And I will just start to say why I don't think I am hearing 
straight talk. And Secretary Hall, I have a lot of respect for 
you. But I am reading that the National Guard and Reserve 
Equipment Report, produced by your office, indicates a total 
reserve component shortfall of critical items of more than $15 
billion. Yet I read in your testimony that in fiscal year 2006, 
funding for the reserve component will be only $2.5 billion for 
equipment procedure.
    In other words, so how could DOD let the reserve component 
get into a position of a shortfall of critical items of more 
than $15 billion?
    Mr. Hall. Well, in the testimony before you came in, some 
of it was addressed; in that the $21 billion that the Army has 
planned, as General Melcher indicated, will address that $15 
billion, and there might be more. That $1.3 billion is 
immediate. Within the supplemental, within the yearly planning, 
there is a total of $21 billion planned which 2 years ago was 
not planned, as General Melcher indicated. So that is money to 
address the shortfall that General Blum has talked about of $15 
billion.
    Mr. Shays. Well, you go on to State, I think, that in the 
short term, the Army Guard's immediate requirements have been 
resolved. How have they been resolved?
    Mr. Hall. I think they have been resolved by the $1.3 
billion that is going to be put in for immediate requirements, 
plus through cross-leveling of their equipment. As they send 
their forces forward, they are provided with 100 percent of the 
requirements when they go into theater. Now, that involves 
taking equipment and cross-leveling from units that are not 
going. So I think in the immediate----
    Mr. Shays. So you mean in Iraq they are resolved?
    Mr. Hall. For the forces that go forward in Iraq and 
Afghanistan. We are resolving the homeland defense 
requirements, as I said, as part of the five areas that we are 
looking at--resetting the equipment, repairing the equipment--
the homeland defense requirements.
    Mr. Shays. You are giving me the impression that we are 
resolving it.
    Mr. Hall. No, I think the problem has been identified. What 
I am giving you an impression and a straight talk is that we 
are all committed to providing the resources to resolve the 
requirements of the National Guard in all of those five areas.
    Mr. Shays. OK.
    Mr. Hall. And that commitment from all of us at the table 
is here.
    Mr. Shays. Now, explain to me, General Blum, why he needs 
at least $1.3 million of supplemental funding for Katrina.
    General Blum. I need $1.3 billion to buy equipment to do 
the job here in the United States----
    Mr. Shays. Because----
    General Blum. Because Katrina, Rita, Wilma, and the forest 
fires, and the snow storms in North Dakota, and the flooding in 
New Hampshire, and all of the operational requirements we 
respond to that the Adjutants General alluded to and the 
Governors talked to, require equipment. That means night vision 
goggles, communications----
    Mr. Shays. So let me come back----
    General Blum. I need the money to buy equipment, sir, in 
straight talk.
    Mr. Shays. I understand what you need, and I hear you. So 
let me go back to you, Mr. Hall. How do I say that in the short 
term the Army Guard's immediate requirements have been 
resolved?
    Mr. Hall. I indicated for Iraq and Afghanistan. We are in 
the process, as General Blum just said, of resolving their 
requirements for homeland defense.
    Mr. Shays. In the process, or have been resolved?
    Mr. Hall. We are in the process.
    Mr. Shays. So they haven't been resolved?
    Mr. Hall. They have been resolved for their forces going 
forward in Iraq and Afghanistan. We still have to resolve how 
we provide the necessary equipment for disasters and homeland 
defense.
    Mr. Shays. And that they get proper equipment to train 
with.
    Mr. Hall. Well, in all areas. To reset the equipment, to 
repair the equipment, to train for the ARFORGEN, and to meet 
all the other missions abroad and at home. So we have to do it 
in all five areas.
    Mr. Shays. Well, then walk me back to how--I am still 
having trouble reconciling Mr. Walker's statement. I mean, I 
don't mean to be dense here, but Mr. Walker stands by his 
statement, and you agree with his statement. And yet you 
somehow feel like it is being resolved. I don't understand.
    If you are telling me you know he is right and somehow in 
the future it is going to be resolved, I might say, OK, at 
least you are acknowledging that. But you are saying it 
differently. You are saying it has been resolved.
    Mr. Hall. Well, it has not all been resolved. And I think 
General Melcher wanted to comment.
    General Melcher. Congressman, let me give this a try. One 
of the things that was said in the report was that the old 
business model was not sustainable, and we would agree with 
that. The business model that says that the Reserve is a 
strategic reserve is not complementary with the current 
security environment that we live in, and so that model had to 
change.
    The way it changed, as I described it, is to accept that 
the Guard is going to be an operational force, as is the 
Reserve, and that they should be equipped commensurate with 
that status. And so where that is being played out in terms of 
a plan is in the Army's campaign plan over time to transition 
both active units and Guard units to this new design--you know, 
to this modular force, standardized design--and to equip them 
as rapidly as possible, as rapidly within resources allowed----
    Mr. Shays. What does it mean, ``in time?''
    General Melcher. All right, sir. For the active force, we 
are transitioning all 43 active brigades between now and the 
end of fiscal year 2007. For the Guard brigades, they have 
expressed the desire to transition as rapidly as possible to 
the new design, by the end of fiscal year 2008.
    Mr. Shays. The 43 is what? I'm sorry.
    General Melcher. Forty-three active, and 34 Guard brigades. 
And they will transition to the new design by the end of fiscal 
year 2008. The equipping for those units will continue 
throughout this 5-year defense plan period, up through fiscal 
year 2011. And with lead times, they will probably get the last 
of their equipment in fiscal year 2012. That is what the $21 
billion that the Army has allocated is going against.
    Mr. Shays. Yes, it is 7 years, but this $21 billion won't 
begin to address all of those needs.
    General Melcher. Sir, the $21 billion addresses all the 
needs of these new formations; which, quite honestly, have more 
of everything. It has more trucks, it has more unmanned air-
able vehicles----
    Mr. Shays. How much will it address?
    General Melcher. $21 billion takes care of, I would say, 
probably about three-quarters of the total need. There is 
another $7 billion on top of that, that General Blum and I have 
agreed is the remainder. Most of that is replacing those things 
that are ``in lieu of'' items, and bringing them up to the most 
modernized level. Some are communications and others.
    But those for the entire Army extend well into the next 
half of the next decade. The U.S. Army, for example, will still 
have less than modernized types of equipment that we will 
replace--tactical wheel vehicles, for example--up to the 2015 
timeframe. So that condition I described for the Guard is the 
same as for the active.
    Mr. Shays. Mr. Walker, help me out here. What are you 
hearing, and what aren't you hearing?
    Mr. Walker. Well, what I am hearing is, I believe that 
there has been general agreement with regard to not just what 
the report we issued says, but also with regard to other issues 
that I talked about in my statement.
    At the same point in time, obviously there are limits as to 
the authority and the resources that these gentlemen have. And 
therefore, there is a reconciliation that needs to take place, 
both within the Department of Defense as well as with the 
Congress, as to what the overall resource level will be and how 
might those resources get allocated to be able to meet the most 
critical needs.
    And so I don't think there is disagreement here at this 
table. I think the question is, what is going to happen to 
engage in that overall reconciliation.
    Mr. Shays. Well, the one disagreement I have is that I am 
left with the impression from you, ``It is not clear whether 
these initiatives will be effective in enhancing the Army 
National Guard's equipment posture, because DOD has not yet 
developed detailed plans; nor has it included funding for all 
initiatives in its budget.''
    And I get the impression from General Melcher and Secretary 
Hall that, ``Everything is all planned out; we just have to 
carry it out; and by 7 years, it is all going to be done.'' 
They don't jive.
    Mr. Walker. I can explain part of that delta, or 
inconsistency, Mr. Shays. And that is that there are certain 
things that have been done by the Department that we have not 
had the opportunity to see yet. For example, there is a listing 
of 342 items--or whatever it was--of requirements for the Army 
National Guard, and possibly other entities, that have been 
developed by the Department of Defense; but that is still pre-
decisional. They haven't made decisions. We have not taken a 
look at that yet.
    But even if they do make decisions that this is what they 
need, there is no guarantee that they are going to get the 
resource allocation for it. And that is part of the other 
problem.
    Mr. Shays. Which is to say, in a way, to the general public 
listening, ``Everything is fine.'' But to a Member of Congress, 
I could leave this meeting thinking everything is fine, and 
then I could have someone from the press come up to me 2 years 
later and say, ``You had a hearing. You were told there was a 
problem. You didn't do a damn thing about it.'' And because I 
am left with this feeling like what you said is true, and it 
has all been taken care of.
    So let me ask it differently, General Blum or anyone else. 
What steps have to be taken by Congress?
    Mr. Hall. Could I comment on that?
    Mr. Shays. Yes.
    Mr. Hall. Following their report, we told GAO that we 
concurred. I asked the Army to give us their detailed plan on 
how they will accomplish this equipping. That is due by October 
31st. Part of their recommendation was that, based upon that, 
we, DOD, submit to Congress a report on exactly the equipping 
strategy of what the Army will do. As soon as we get the 
report, we will be submitting by detail on how this money is 
going to be spent, on how future requirements. So this has 
flowed from that to us giving----
    Mr. Shays. When will that report be done?
    Mr. Hall. Well, it is soon after October 31st, which is 10 
days.
    Mr. Shays. OK.
    Mr. Hall. We need to review that. We need to make sure that 
we have the correct and agreed upon integrated strategy. And 
then we will give to you, the committee and the Congress, what 
we have been saying about our future strategy, and what General 
Melcher has outlined. So we are providing that based upon the 
work that they did. And we are committed to doing that as soon 
as we can.
    Mr. Shays. So being committed to doing it, and its being 
resolved, are two different issues. And I think that is maybe 
my problem with your terminology. Your recognizing this has to 
be done is a helpful and encouraging sign. That it has been 
dealt with yet, no. That it will be dealt with, and that you 
are pledging to this committee and others that you will deal 
with it, is another issue.
    And it seems to me that this is really, Mr. Chairman, 
almost a preliminary effort; that it would make good sense for 
us to get you back in 4 months and see where we are at.
    Mr. Hall. It could have been better terminology, I admit. 
But what I want you to know is, we are committed, and as you 
have heard, to addressing this problem and providing equipment 
that the National Guard needs to do its missions worldwide, 
overseas and here.
    Mr. Shays. OK. Let me just tell you why I get a little 
anxious about this, and I will conclude with this.
    Having been to Iraq 10 times; having continually had my own 
constituents in the National Guard complain about equipment; 
having shown up in the Kurdish area on a base and having the 
commander of, I think, North Carolina troops show me three 
Humvees--one with no protection, one with makeshift, and one 
with, you know, factory protection; coming back to my staff 
saying, ``Dammit, we need to deal with this issue''; and then 
having the military say, ``Done, taken care of''; and then 
finding out that we kept revising the number of targets, so 
they said, ``We will reach this target by--'' but we never 
solve the issue with the target adequate to meet the whole 
needs of all our troops--and I realize that I have to ask these 
questions differently.
    And because we let our troops down, I know and you know 
there were men and women who died because they didn't have the 
proper protection, because we continually underestimated our 
needs. And the end result was, we may finally have gotten it up 
there, but it took us too long. Had we agreed on day one, 
``This is where we need to get, way over here,'' we would have 
gotten to it sooner.
    And you know, it is kind of a terrible thing to have to 
say, but we cost some lives of our own troops, because we 
didn't, collectively, target it right.
    So I am leaving this hearing with a total recognition on 
the part of the military that you buy in, do not argue with 
what Mr. Walker has said and his people; that you have a plan 
to resolve it; that you are going to come back with a detailed 
outline as to how long it will take, how much money it will 
require from Congress to do the job. And then, if we don't 
appropriate the dollars, it is on our shoulders. If you don't 
tell us in plain English what you need, it rests on your 
shoulders. That is kind of how I am feeling.
    Do any of you disagree with that?
    General Blum. No, sir. As a matter of fact, I agree with it 
completely. But I want to make sure for the record you know 
where I stand on this. I think the GAO report has described the 
ugly baby in perfect detail. I think that the Department of 
Defense recognizes we have an ugly baby that needs to be 
addressed.
    I think that the U.S. Army is working, the Department of 
Army has recognized and has taken this on in a serious manner 
for the first time ever. And we don't have a total plan and we 
don't have a total solution, but we are working to it right 
now. And we are working within the budgets that we have been 
provided, and we are making some trades based on----
    Mr. Shays. OK, now, that is the part that makes me nervous. 
And let me say, General Blum, that I have heard nothing but 
compliments about the job you have done. Nothing but 
compliments about your honesty. You are straightforward.
    But to say then you are working within the budget means 
that you may have been provided less than the budget you need. 
And if you have, you need to tell us.
    General Blum. I will tell you now. I am currently, and we 
agree on a number--and if you don't, please say it. We think we 
are $7 billion short on what we are resourced to provide 
against what we would like to have to be able to not have 
risks.
    Mr. Shays. $7 billion above the $21? Is that the number? 
You are nodding your head. Some one say ``Yes'' or ``No.''
    General Blum. Yes, sir.
    Mr. Shays. And General, is the $21 appropriated in the 
budget, or hoping to be in the budget?
    General Melcher. Sir, this amount, $21 billion, is what is 
in the Army's plan over the 5-year defense plan period.
    Mr. Shays. So it is not in the budget yet?
    General Melcher. Well, it is partially in the 2006 budget 
request, the 2006 supplemental request, and so forth. But the 
key point is, you are absolutely right. Once we lay this out, 
we will need the support of both the administration, the 
Department of Defense, and Congress, in order to make this 
vision for what these forces ought to be a reality.
    Mr. Shays. So is this $21--I'm sorry, Mr. Chairman, because 
I am concluding here. Is the $21 now becoming $28?
    General Melcher. Well, the $21 only covers up through 
fiscal year 2011, which is as far as we plan out for this point 
in time. When we build a new program in the spring, we push 
that time horizon out to 2013. And so there are some things for 
both the active and the Guard that continue to happen over 
time.
    Mr. Shays. And it will be, by 2013, full? That is a long 
time from now, folks. It is going to take us that long?
    General Melcher. Sir, if the Army had a lot more money in 
current years, we would go after this problem much quicker.
    Mr. Shays. No, no, no. You know, I was going to conclude, 
but that is not the way I would like to think about how you 
communicate with us. Because you have already made an 
assumption that you are not going to ask for more because you 
are not going to tell us--so what I am hearing is, for the next 
8 years, basically, we are going to have the problem that Mr. 
Walker outlined.
    General Melcher. Sir, I think we are going to continually 
have a problem with equipping. And perhaps it is worth just 1 
second to explain why do we have stay-behind equipment. The 
reason we have it is because it is things like up-armored 
Humvees or specialized equipment, night vision goggles, that 
you want the next soldier to fall in on when they come over 
there.
    Mr. Shays. I am not arguing that they shouldn't have it. 
What is your point?
    General Melcher. Well, my point, sir, is that we continue 
to evolve and change this mission over time. For example, we 
have transition teams now that are training the Iraqi army. 
Those teams all had to be equipped. We are putting pre-
positioned stocks back together overseas. Those things must be 
created. So there is a constant dynamic of new equipping 
requirements that come over time.
    What I am saying is, this plan that we have for the $21 
billion is a sound plan, but it must be seen through in each 
one of the years in which it unfolds.
    Mr. Shays. Well, I will just again recommend to our 
committee, Mr. Chairman, that we have a followup, not in the 
too-distant future, since your report is going to come. And I 
appreciate all of you being here.
    And I didn't have any questions for our National Guard 
folks, but I know that your statements were pretty 
straightforward: You need help. And you are proud of the people 
that you have working for you, and you are happy with your 
enrollments, in some instances.
    But we know nationwide we have a problem of enrollment, and 
we are overworking our National Guard. We are totally 
overworking them, and under-equipping them still.
    Chairman Tom Davis. Thank you. I just want to thank you 
all. I want to thank our Guard representatives. Your statements 
are in the record. I think you made a strong case. General 
Walker, thank you. And I want to thank our Pentagon officials, 
too.
    The hearing is adjourned. And we will be back in about 5 
minutes to start the committee markup.
    [Whereupon, at 1:42 p.m., the committee was adjourned.]
    [The prepared statements of Hon. Todd Russell Platts, Hon. 
Jon C. Porter, Hon. Patrick T. McHenry, Hon. Elijah E. 
Cummings, and additional information submitted for the hearing 
record follows:]
[GRAPHIC] [TIFF OMITTED] T4714.121

[GRAPHIC] [TIFF OMITTED] T4714.122

[GRAPHIC] [TIFF OMITTED] T4714.123

[GRAPHIC] [TIFF OMITTED] T4714.124

[GRAPHIC] [TIFF OMITTED] T4714.125

[GRAPHIC] [TIFF OMITTED] T4714.126

[GRAPHIC] [TIFF OMITTED] T4714.127

[GRAPHIC] [TIFF OMITTED] T4714.128

[GRAPHIC] [TIFF OMITTED] T4714.129

[GRAPHIC] [TIFF OMITTED] T4714.130

[GRAPHIC] [TIFF OMITTED] T4714.131

[GRAPHIC] [TIFF OMITTED] T4714.133

[GRAPHIC] [TIFF OMITTED] T4714.134

[GRAPHIC] [TIFF OMITTED] T4714.135

[GRAPHIC] [TIFF OMITTED] T4714.136

[GRAPHIC] [TIFF OMITTED] T4714.137

[GRAPHIC] [TIFF OMITTED] T4714.138

[GRAPHIC] [TIFF OMITTED] T4714.139

[GRAPHIC] [TIFF OMITTED] T4714.140

[GRAPHIC] [TIFF OMITTED] T4714.141

[GRAPHIC] [TIFF OMITTED] T4714.142

[GRAPHIC] [TIFF OMITTED] T4714.143

[GRAPHIC] [TIFF OMITTED] T4714.144

[GRAPHIC] [TIFF OMITTED] T4714.145

[GRAPHIC] [TIFF OMITTED] T4714.146

[GRAPHIC] [TIFF OMITTED] T4714.147

[GRAPHIC] [TIFF OMITTED] T4714.148

[GRAPHIC] [TIFF OMITTED] T4714.149

[GRAPHIC] [TIFF OMITTED] T4714.150

[GRAPHIC] [TIFF OMITTED] T4714.151

[GRAPHIC] [TIFF OMITTED] T4714.152

[GRAPHIC] [TIFF OMITTED] T4714.153

[GRAPHIC] [TIFF OMITTED] T4714.154

[GRAPHIC] [TIFF OMITTED] T4714.155

[GRAPHIC] [TIFF OMITTED] T4714.156

[GRAPHIC] [TIFF OMITTED] T4714.157

[GRAPHIC] [TIFF OMITTED] T4714.158

[GRAPHIC] [TIFF OMITTED] T4714.159

[GRAPHIC] [TIFF OMITTED] T4714.160

[GRAPHIC] [TIFF OMITTED] T4714.161

[GRAPHIC] [TIFF OMITTED] T4714.162

[GRAPHIC] [TIFF OMITTED] T4714.163

[GRAPHIC] [TIFF OMITTED] T4714.164

[GRAPHIC] [TIFF OMITTED] T4714.165

[GRAPHIC] [TIFF OMITTED] T4714.166

[GRAPHIC] [TIFF OMITTED] T4714.167

[GRAPHIC] [TIFF OMITTED] T4714.168

[GRAPHIC] [TIFF OMITTED] T4714.169

[GRAPHIC] [TIFF OMITTED] T4714.170

[GRAPHIC] [TIFF OMITTED] T4714.171

[GRAPHIC] [TIFF OMITTED] T4714.172

[GRAPHIC] [TIFF OMITTED] T4714.173

[GRAPHIC] [TIFF OMITTED] T4714.174

[GRAPHIC] [TIFF OMITTED] T4714.175

[GRAPHIC] [TIFF OMITTED] T4714.176

[GRAPHIC] [TIFF OMITTED] T4714.177

[GRAPHIC] [TIFF OMITTED] T4714.178

[GRAPHIC] [TIFF OMITTED] T4714.179

[GRAPHIC] [TIFF OMITTED] T4714.180

[GRAPHIC] [TIFF OMITTED] T4714.181

[GRAPHIC] [TIFF OMITTED] T4714.182

[GRAPHIC] [TIFF OMITTED] T4714.183

[GRAPHIC] [TIFF OMITTED] T4714.184

[GRAPHIC] [TIFF OMITTED] T4714.185

[GRAPHIC] [TIFF OMITTED] T4714.186

[GRAPHIC] [TIFF OMITTED] T4714.187

[GRAPHIC] [TIFF OMITTED] T4714.188

[GRAPHIC] [TIFF OMITTED] T4714.189

[GRAPHIC] [TIFF OMITTED] T4714.190

[GRAPHIC] [TIFF OMITTED] T4714.191

[GRAPHIC] [TIFF OMITTED] T4714.192

[GRAPHIC] [TIFF OMITTED] T4714.193

[GRAPHIC] [TIFF OMITTED] T4714.194

[GRAPHIC] [TIFF OMITTED] T4714.195

[GRAPHIC] [TIFF OMITTED] T4714.196

[GRAPHIC] [TIFF OMITTED] T4714.197

[GRAPHIC] [TIFF OMITTED] T4714.198

[GRAPHIC] [TIFF OMITTED] T4714.199

                                 <all>
</pre></body></html>
